<html>
<title> - MISCELLANEOUS PUBLIC LANDS AND FORESTS BILLS</title>
<body><pre>[Senate Hearing 110-216]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-216
 
                    MISCELLANEOUS PUBLIC LANDS AND 
                             FORESTS BILLS

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

                                     

                           S. 1143                               S. 1377

                           S. 1433                               S. 1608

                           S. 1740                               S 1802

                           S. 1939                               S. 1940

                           S. 2034                               H.R. 815





                               __________

                           SEPTEMBER 20, 2007


                       Printed for the use of the
               Committee on Energy and Natural Resources



                     U.S. GOVERNMENT PRINTING OFFICE

39-600 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           BOB CORKER, Tennessee
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
              Frank Macchiarola, Republican Staff Director
             Judith K. Pensabene, Republican Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                      RON WYDEN, Oregon, Chairman

DANIEL K. AKAKA, Hawaii              LARRY E. CRAIG, Idaho
TIM JOHNSON, South Dakota            LISA MURKOWSKI, Alaska
MARY L. LANDRIEU, Louisiana          RICHARD BURR, North Carolina
MARIA CANTWELL, Washington           JIM DeMINT, South Carolina
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky

   Jeff Bingaman and Pete V. Domenici are Ex Officio Members of the 
                              Subcommittee

                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Auborn, Jim, Mayor, Port Orford, OR..............................    23
Barrasso, Hon. John, U.S. Senator From Wyoming...................     4
Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     6
Domenici, Hon. Pete V., U.S. Senator From New Mexico.............     3
Ensign, Hon. John, U.S. Senator From Nevada......................     8
Holtrop, Joel, Deputy Chief, National Forest System, Forest 
  Service, Department of Agriculture.............................     9
Martinez, Hon. Mel, U.S. Senator From Florida....................     3
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     5
Nedd, Michael, Assistant Director, Minerals, Realty and Resource 
  Protection, Bureau of Land Management, Department of the 
  Interior.......................................................    12
Reid, Hon. Harry, U.S............................................     7
Rogers, Jim, Consulting Forester, Friends of Elk River, Port 
  Orford, OR.....................................................    26
Smith, Hon. Gordon, U.S. Senator From Oregon.....................     4
Wyden, Hon. Ron, U.S. Senator From Oregon........................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    33

                              Appendix II

Additional material submitted for the record.....................    35


              Miscellaneous Public Lands and Forests Bills

                              ----------                              


                      THURSDAY, SEPTEMBER 20, 2007

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Ron Wyden 
presiding.

 OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM OREGON

    Senator Wyden [presiding]: The subcommittee will come to 
order. I especially want to thank both Chairman Bingaman and 
our ranking minority member and friend from New Mexico, Senator 
Domenici for his thoughtfulness, my colleague who has come.
    We're going to hear testimony today on several land use 
bills: S. 1377 to direct the Secretary of the Interior to 
convey to the city of Henderson certain Federal land located in 
the City; S. 1433 to amend the Alaskan National Lands 
Conservation Act to provide competitive status to certain 
Federal employees; S. 1608 and H.R. 815 to provide for the 
conveyance of certain land in Clark County, Nevada for use by 
the Nevada National Guard; S. 1740 to amend the North Dakota 
Statement Act and the Morrill Act to provide for the management 
of public land trust in the State of North Dakota; S. 1802 to 
adjust the boundaries of the Frank Church River of No Return 
Wilderness in the State of Idaho; S. 1939 to provide for the 
conveyance of certain land in the Santa Fe National Forest in 
New Mexico; S. 1940 to reauthorize the Rio Puerco Watershed 
Management Program; S. 1143 to designate the Jupiter Inlet 
Lighthouse and the surrounding Federal land in the State of 
Florida as an Outstanding Natural Area and as a unit of the 
National Landscape System and S. 2034 the Copper Salmon 
Wilderness Act, a bill I introduced to increase the existing 
wilderness and a natural treasure near the southern Oregon 
coast.
    We anticipate these bills being non-controversial so hope 
to move very quickly. I'm going to recognize my friend in just 
a moment, but would just like to make a couple of quick 
comments about the Copper Salmon Wilderness Area which is on 
the beautiful Oregon coast. I am joined in this effort by my 
colleague, Congressman DeFazio and we are seeking protection 
for the lush rain forests of the Siskiyou River National Forest 
at the head waters of the North Fork of the Elk River which is 
a special gem known as the Copper Salmon area.
    Our legislation would designate Copper Salmon as wilderness 
and provide permanent protection to 13,700 acres of new 
wilderness. It would also designate 9.3 miles of wild and 
scenic rivers. The designations, in particular, would protect 
the watershed and ensure that hunting and fishing opportunities 
are protected for all time in the Copper Salmon area.
    Over the last decade and in particular, during town hall 
meetings that I've held on the Oregon coast I've been struck by 
the fact that so many local leaders have been working 
regardless of political philosophies and parties and different 
views on scores of subjects to protect Copper Salmon. Again and 
again they have urged me to introduce this legislation. When 
you make a trip to beautiful Curry County in Oregon what you 
will invariably see is supporters all through the community 
carrying buttons and banners and badges urging the Congress to 
protect their Copper Salmon. So I say to them, particularly the 
folks who have journeyed across the land from Curry County and 
this afternoon to be with the U.S. Senate, I have heard your 
plea.
    I thank you for all of your involvement. It's time that we 
come together regardless of political philosophy and political 
party to permanently protect this special place. I'm very 
pleased that there has been strong support for this measure 
from the Port Orford Chamber of Commerce, the Mayor of Port 
Orford and the Curry County Commissioners, certainly the 
majority of the guides, lodges and local citizens are already 
on record of supporting the proposal. It is a renowned area for 
fishing families.
    It is one of the last intact watersheds on the Southwest 
Oregon coast, 80 percent of the watershed still being intact. 
The Elk has healthy wild runs of winter steelhead and Chinook. 
It's also home to Coho salmon and sea run cut-throat trout as 
well as resident cut-throats and rainbow trout.
    Oregon State University researchers, some of the best in 
the country, believe it is one of the healthiest fish streams 
in the lower 48. We think there's a reason for it and that is 
intact habitat. This habitat also supports healthy populations 
of black tailed deer, elk, black bear and mountain lion.
    As our population grows we are going to have to make sure 
that we match this growth with protection of our natural 
heritage. Protection of these areas is going to ensure that 
Oregonians and visitors will continually enjoy opportunities to 
hike and hunt healthy populations of elk, black tailed deer, 
black bear and catch trophy size Chinook and steelhead.
    I want to thank the witnesses who have made the trek across 
the land. We have only one non-stop to Washington DC and I know 
what it is like for them to make the journey, Jim Auborn, the 
Mayor of Port Orford and Jim Rogers with Friends of Elk River. 
I'm going to ask all of our witnesses to try to summarize their 
remarks in about 5 minutes.
    Several of my colleagues have joined us. I'm very pleased 
that Senator Barrasso is here. He's going to be the ranking 
member for today's hearing. In addition to great expertise on 
natural resources, he brings similar expertise on health care 
so if we sit through these hearings we can take care of natural 
resources, health care and show the Congress the way to work in 
a bi-partisan fashion. I thank my colleague for coming. We'll 
recognize you next. Then we have Senator Smith, my friend and 
colleague from Oregon who I know has strong feelings about the 
matter as well.
    [The prepared statements of Senators Domenici and Martinez 
follow:]

  Prepared Statement of Hon. Pete V. Domenici, U.S. Senator From New 
                     Mexico, on S. 1939 and S. 1940
    Chairman Wyden, thank you for holding this hearing today. I have 
asked Senator Barrasso to fill in as the Ranking Member of the Public 
Lands and Forests Subcommittee for today's hearing.
    I want to spend just a moment on the two bills that Senator 
Bingaman and I have introduced.
                                s. 1939
    In 2003, the Interior Board of Land Appeals ruled that a homestead 
patent for a tract of land in the upper Pecos River Canyon issued in 
1888 to Ramona Lawson's grandfather, Cristino Rivera, erroneously 
failed to include the main house, cabin, and various outbuildings, 
corrals, etc., as part of the homestead entry.
    This bill will authorize the Forest Service to resolve a 
longstanding land claim by conveying a small parcel of land (6.2 acres) 
directly to Ms. Ramona Lawson in return for a scenic easement over the 
property.
                                s. 1940
    The second is S. 1940, to reauthorize the Rio Puerco Watershed 
Management Program. The Rio Puerco watershed is the primary source of 
undesirable fine sediment delivered to the Rio Grande River system. To 
help address this problem, in 1996, Congress directed the Bureau of 
Land Management, working with a committee of Federal and State 
agencies, to establish a clearinghouse for research and information on 
management within the area.
    They have established an inventory of best management practices and 
related monitoring activities. They continue to identify objectives, 
monitor results of ongoing projects, and develop alternative watershed 
management plans for the Rio Puerco Drainage Basin, based on best 
management practices. That initial authorization expired in November 
2006.
    S. 1940 extends that authorization for an additional ten year 
period at the same funding level it was authorized for in the past. I 
believe this legislation has been helpful and is working well.
    Thank you Chairman Wyden, I look forward to this hearing.
                                 ______
                                 
Prepared Statement of Hon. Mel Martinez, U.S. Senator From Florida, on 
                                S. 1143
    Mr. Chairman, I want to thank you for including S.1143 in today's 
hearing before the Subcommittee on Public Lands and Forests. I am a 
proud cosponsor of this legislation with my colleague Senator Bill 
Nelson, and it is my hope that today is the first step in the process 
in getting the Jupiter Inlet Lighthouse and its surrounding federal 
lands designated as an Outstanding Natural Area in the National 
Landscape System.
    The Jupiter Inlet Lighthouse has a very interesting and important 
cultural history in south Florida. The design plans for the lighthouse 
were drawn up by the Civil War hero, George Mead, years before his 
service at the Battle of Gettysburg in Pennsylvania. The government was 
very concerned that as American trade and ship traffic increased with 
the Caribbean, that a beacon was needed to warn mariners of the 
dangerous reefs off Jupiter Inlet that would also serve as guide for 
ships to travel through the inlet and reach the Atlantic gulf stream. 
The US Army also used the surrounding land around the lighthouse as a 
stockade and garrison during the Second Seminole War.
    The Outstanding Natural Area designation was established by 
Congress primarily to protect unique scenic, scientific, educational, 
and recreational resources for the enjoyment of current and future 
generations. The designation has been used for conservation sites of 
approximately 100 acres in size that feature a lighthouse. Jupiter 
Inlet would be the second Outstanding National Area in the nation and 
the first east of the Mississippi River.
    This designation is critical to help preserve an area around the 
Jupiter Inlet Lighthouse for its cultural and biological resources, in 
what is now a very urbanized part of Florida. Ironically, when the 
lighthouse was first completed in 1860, the nearest town or outpost was 
120 miles away in Titusville. The lighthouse and the surrounding 
grounds were placed on the National Register of Historic Places in 
1967. The site is also home to a myriad of special status species and 
provides critical habitat for endangered species like scrub jays and 
gopher tortoises.
    S. 1143 has the support of the City of Jupiter and a dynamic 
preservation partnership with the Loxahatchee River Historical Society 
and several federal agencies in south Florida. It is my hope that this 
legislation will be swiftly considered and passed out of Committee so 
that future generations of young Floridians will be able to enjoy this 
unique cultural gem.

    Senator Barrasso.

   STATEMENT OF HON. JOHN BARRASSO, U.S. SENATOR FROM WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman. Thank 
you for holding this hearing today. Senator Domenici has asked 
that I fill in at this meeting today as the ranking member of 
the Public Lands and Forests Subcommittee for the hearing. I 
look forward to working with other members of the subcommittee.
    As you know, in Wyoming, as with you, the Forest Service 
and Bureau of Land Management are very important. Exchange 
processes are important to the people of Wyoming as well. When 
we look at legislative proposals to undertake exchanges, we 
say, should these have been able to be done administratively? I 
wonder about what we can do to do a better job in facilitating 
those exchanges. I may have a question or two about that.
    I'm going to welcome the witnesses who are here today 
especially those who traveled such a great distance. I just 
spent the lunch hour with Senator Gordon Smith talking about 
the beauty of Oregon. I tried to get in a little bit about the 
beauties of Wyoming. But mostly we got to hear about the 
beauties of Oregon, which are many.
    So with that, Mr. Chairman, thank you. I look forward to 
the hearing.
    Senator Wyden. I look forward to working with you.
    Senator Smith.

         STATEMENT OF HON. GORDON SMITH, U.S. SENATOR 
                          FROM OREGON

    Senator Smith. We were especially tasting Oregon peas and 
I'm sure you had your share.
    Thank you, Senator Wyden, our subcommittee chairman and my 
colleague from Oregon for holding today's hearing. Of 
particular note is the bill we're focusing on, S. 2034, to 
designate wilderness and wild and scenic rivers in the Copper 
Salmon area of Southwestern Oregon. Wilderness is not a 
designation that I take lightly, nor is it something that I 
categorically oppose.
    In my 10 years in the U.S. Senate, we've created Oregon's 
fourth largest wilderness at Steen's Mountain and are working 
on designating over 128,000 acres of wilderness on Mt. Hood. In 
both cases cooperation, support from local communities and user 
groups have been critical. With respect to the Copper Mountain 
proposal there's been tremendous if not a remarkable level of 
support from local elected officials, sportsmen and 
conservationists. This would not be possible if we were not 
discussing a very special resource, unique both in its forests 
and its fisheries, or in more Oregonian terms, big trees and 
big fish.
    There are only two sets of issues that I'd like to see 
addressed by the committee. The first being raised by the 
Forest Service. This has to do with a few miles of closed roads 
and plantation tree stands within the wilderness boundaries.
    The second set of issues related to tribal access. The 
Copper Salmon area is of strong ancestral and historic interest 
to the Coquille Indian tribe. I want to be sure that the 
cultural gathering activities that they have historically 
practiced are not impeded by wilderness designation.
    I believe that both sets of issues can easily be resolved 
in good faith between the committee, the Forest Service and the 
Coquille Indian tribe. That being the case, and I'm confident 
of that, Mr. Chairman, I ask you to add me as a co-sponsor to 
this legislation.
    Senator Wyden. Without objection and with considerable 
pleasure it is done.
    Senator Smith. I look forward to working with you on this 
issue. I'd also like to comment that while wilderness is indeed 
warranted in many areas, that we cannot lose sight of the need 
for active management in other areas of the Federal forest. 
Thank you, Mr. Chairman.
    Senator Wyden. I thank my colleague and we will work hard 
and together on Mt. Hood and Copper Salmon as well. I'm joined 
by a friend from Alaska, Senator Murkowski.
    Would the Senator care to make a statement?

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. I would, Mr. Chairman. Thank you.
    I appreciate the opportunity, Mr. Chairman, to just address 
very briefly one of the measures that we will have before us 
this afternoon. The Alaskan National Interest Lands 
Conservation Act, ANILCA, in 1980 set aside 100 million acres 
of Alaska's land to remain in Federal ownership for national 
interest. It doubled the size of our country's national park 
and refuge system, and tripled the amount of land designated as 
wilderness. It expanded our National Park System in Alaska by 
over 43 million acres, creating ten new national parks and 
increasing the acreage of three existing units.
    At the time that ANILCA was passed, Alaskans had a lot of 
concerns. One of those concerns was that the Federal Land 
Management Agencies would bring in employees from the lower 48 
to Alaska to manage these resources. We were concerned that the 
jobs in the parks and the forests and the refuges would be 
beyond the reach of the communities there.
    So many of our lands are located in Bush Alaska, where 
opportunities for year round employment are scarce. So in 
response to these concerns Congress provided the Land 
Management Agencies with authority to hire locally. Local hire 
authority was limited to individuals who have special knowledge 
and expertise of the conservation systems that were established 
by ANILCA.
    Now since ANILCA was enacted the Federal Land Management 
Agencies have sought to implement the local hire authority. But 
they have been hampered in finding individuals who want to work 
as local hires because the local hire program doesn't allow for 
any career mobility. So for the past 25 years, the Federal Land 
Management Agencies have concluded and perhaps incorrectly, 
that an ANILCA local hire can only work in the Alaska Federal 
land unit in which he or she has special expertise or another 
Alaska Federal land unit with respect to which he or she can 
demonstrate their special expertise. This is in contrast with 
those with career status, who enjoy the opportunity to 
promotion within their agencies and not often have to move to 
other units for career mobility.
    The present limitations are also inequitable for the 150 or 
so Alaskans who presently hold ANILCA local position. Many have 
performed in exemplary fashion but have been deemed ineligible 
to grow their careers through transfer or promotion. So that 
legislation that we have introduced, S. 1433, would address 
this problem by granting career status to ANILCA local hires 
who serve satisfactorily for a period of 2 years.
    Now I understand that the Administration supports the 
concept of providing career status to ANILCA local hires but 
perhaps has a different idea of how to make that happen. I look 
forward to working with them on the proposed amendments that 
they plan to submit to committee.
    I will note for the committee that this legislation is 
named after an individual by the name of Tom O'Hara. Tom was an 
Alaska Native who came from a very distinguished family in the 
Bristol Bay region. He lived in Napakiak and King Salmon. He 
worked for the National Park Service as a protection ranger and 
a pilot. He did so for 5 years before he was killed in the line 
of duty in a fatal airplane crash. His name appears on the 
National Law Enforcement Officers Memorial.
    He was an ANILCA local hire. So we have named this Act in 
recognition of Tom. We know it's not going to make a difference 
for him, but we know that there are others who are similarly 
situated to Tom when he was alive and we would like to provide 
for these career advancements.
    Thank you, Mr. Chairman for the opportunity to present 
this.
    Senator Wyden. Thank the Senator. We will work very closely 
with you on the legislation.
    We're also going to enter into the record now statements 
from Chairman Bingaman, Senator Reid, and Senator Ensign. I 
will hold the record open for colleagues on both sides who'd 
like to make statements.
    [The prepared statements of Senators Bingaman, Reid, and 
Ensign follow:]

Prepared Statement of Hon. Jeff Bingaman, U.S. Senator From New Mexico, 
                         on S. 1939 and S. 1940
    Thank you, Mr. Chairman, for holding this hearing today. I have two 
bills that are of particular interest in my State of New Mexico: 
S.1939, the Santa Fe National Forest Title Claim Resolution Act, and 
S.1940, Rio Puerco Watershed Management Program Reauthorization Act.
    S.1939 would resolve an ongoing dispute between a New Mexico 
family, Ramona and Boyd Lawson, and the Forest Service regarding a land 
title claim within the boundaries of the Pecos Wild and Scenic River in 
the Santa Fe National Forest. In accordance with an IBLA order and 
subsequent compromise between the Forest Service and the Lawsons, S. 
1939 authorizes a small land exchange to the resolve the title issue. I 
believe this bill is non-controversial and is supported by the 
Administration.
    The second bill, S. 1940 is of particular importance to me. It 
reauthorizes the Rio Puerco Watershed Act, which became law in 1996 and 
expired last year. That Act formalized the Rio Puerco Management 
Committee, which over the past ten years has helped facilitate a 
collaborative approach for the restoration of the highly degraded Rio 
Puerco Watershed, which is the largest tributary to the Rio Grande in 
terms of area and sediment.
    Over time, the Rio Puerco watershed has experienced extensive 
ecological damage. According to the BLM, while the Rio Puerco 
contributes less than 10 percent of the total water to the Rio Grande, 
it represents the primary source of sedimentation entering the Upper 
Rio Grande with far reaching effects throughout the lower portions of 
the river.
    In my opinion, the Rio Puerco Management Committee, despite being 
consistently underfunded, has become one of the most effective 
collaborative land management efforts in the Southwest. Much work 
remains to be done within this watershed, which is why I believe the 
committee should be reauthorized. I understand that a technical 
amendment may be needed, and I will work with the BLM to address this 
issue.
    Senator Domenici is a cosponsor of both of these bills and with his 
support I hope to have both bills approved as quickly as possible.
    Thank you.
                                 ______
                                 
  Prepared Statement of Hon. Harry Reid, U.S. Senator From Nevada, S. 
                                  1377
    Thank you for allowing a hearing on this important legislation. The 
City of Henderson is now the second most populous city in Nevada and, 
like much of the southwest, is experiencing tremendous growth. The U.S. 
Census Bureau recently ranked Henderson in the top 20 growth cities in 
the nation. This legislation would allow Henderson to move forward with 
a smart growth plan and to diversify their local economy.
    Specifically, this bill would direct the Bureau of Land Management 
(BLM) to convey approximately 502 acres near the Henderson airport to 
the City of Henderson for development as a business center, and for 
urban green spaces. Henderson would then do what cities do best--plan, 
zone, subdivide, and then sell the land for fair market value. The 
final use of the land would be restricted to nonresidential and 
recreational purposes. All proceeds from the sale of the land would go 
into the Southern Nevada Public Lands Management Act (SNPLMA) Special 
Account since the land sits within the disposal boundary for the Las 
Vegas Valley.
    This legislation has garnered wide support from the City of 
Henderson, the Henderson Chamber of Commerce, the Henderson Development 
Association, and the National Association of Industrial and Office 
Properties, among others. This coalition has come together to support 
Henderson in its effort to diversify its economy, create space for 
important small businesses, and encourage appropriate development 
around an urban airport.
    Finally, I have appreciated the input of the Bureau of Land 
Management on this legislation. Since the last hearing on this measure, 
I believe we have settled all of the outstanding concerns. I sincerely 
hope the Committee will see fit to move this bill expeditiously during 
the current session.
    I would also like to express my support of Senator Ensign's 
Southern Nevada Readiness Center Act, of which I am a cosponsor. That 
bill would allow Clark County to transfer roughly 50 acres to the State 
of Nevada at no cost, for use by the Nevada National Guard. I am proud 
to have appropriated $12.8 million for the construction of the new 
state-of-the-art military training center that now sits on the site in 
question.
    This legislation is now necessary because Clark County, under 
SNPLMA, is required to charge fair market value for any lease or sale 
of the land. Because of the broad public benefit that would come from 
the conveyance of this parcel to the Nevada National Guard, this bill 
would waive those requirements and allow Clark County to transfer the 
land to the State without consideration. In sum, this legislation is an 
important final step toward providing Nevada's National Guard a first 
class facility needed to ensure proper training and troop readiness.
    I greatly appreciate the distinguished Chairman and Ranking Member 
making time for this hearing and I look forward to working with the 
Committee to advance these bills.
                                 ______
                                 
 Prepared Statement of Hon. John Ensign, U.S. Senator From Nevada, S. 
                                  1608
    Chairman and Members of the Sub-Committee: Thank you very much for 
scheduling this hearing to discuss this important piece of legislation.
    Mr. Chairman, this bill, which is co-sponsored by Senator Harry 
Reid and has already been approved by the House of Representatives 
thanks to Representative Jon Porter, is simple and technical in its 
form but profound in its implication. Simply stated, this bill would 
allow Clark County, Nevada, to convey land to the Nevada Division of 
State Lands for use by the Nevada National Guard. Broadly speaking, 
this bill would allow land that is already being occupied by the Nevada 
National Guard to be transferred to the Guard for important national 
defense and security purposes.
    The purpose of the Nevada National Guard's new facility--the Las 
Vegas Readiness Center (LVRC)--is to prepare our soldiers, both 
physically and technically, to respond to the missions of the Governor 
of Nevada and the President of the United States. In addition to this 
facility, the National Guard will utilize the surrounding land for 
facility growth in vehicular maintenance and for emergency response 
support to first responders in weapons of mass destruction situations. 
Notwithstanding the various natural disasters that the National 
Guardsmen respond to, current conflicts abroad demand increased 
reliance upon the men and women who serve in the National Guard. It is 
only right that we do all we can to enable the National Guard to do its 
job.
    Mr. Chairman, the LVRC has been a work in progress for a long time. 
It took seven years to acquire the land and funding and construct this 
80,000 sq ft building. Now that the Armory is finished, between 300-400 
Guardsmen are able to train and drill on the weekends. These Guardsmen 
include a Signal Battalion, and a Medical detachment. It is also the 
planned location for the 92 Civil Support Team.
    Concerning the land in question, all rights, title, and interest to 
these lands were conveyed by the Bureau of Land Management (BLM) to 
Clark County, Nevada, in 1999, as directed by Section 4(g) of the 
Southern Nevada Public Land Management Act of 1998 (SNPLMA), for 
inclusion in the McCarran Airport Cooperative Management Act (CMA).
    The CMA was established in 1992 through an agreement between Clark 
County and the BLM to manage development around McCarran Airport, which 
services the greater Las Vegas area. As directed by SNPLMA, 
approximately 5,000 acres of public land was conveyed by the BLM to 
Clark County for inclusion in the CMA boundary. SNPLMA requires that 
Clark County manage the lands in the CMA in accordance with 49 U.S.C. 
47504, relating to airport noise compatibility planning, so that 
development in the CMA is compatible with the nature of airport 
operations. Further, section (4)(g) of SNPLMA requires that any 
conveyance of CMA lands by Clark County be for fair market value, and 
the revenue distributed according to the formula outlined in Section 
(4)(g) of SNPLMA. SNPLMA unintentionally made no provision for 
conveying lands at less than fair market value in cases such as the 
LVRC. This bill corrects that oversight.
    The BLM understands that S. 1608 conveys land from one public 
entity to another for national defense purposes. In balancing these 
considerations against the provisions of SNPLMA that require the sale 
of CMA lands for fair market value, the BLM supports the bill and the 
conveyance of the CMA lands for no consideration.
    Thank you Chairman and Committee Members for your time today. I 
hope you will join me in supporting this bill that will serve to 
support the men and women who stand in harms way to protect and defend 
our great nation.

    Senator Wyden. Let's bring forward our first panel members: 
Administration witness, Joel Holtrop, Deputy Chief of the 
National Forest System of the United States Forest Service. Mr. 
Michael Nedd, Assistant Director of Minerals, Realty and 
Resources Protection at the Bureau of Land Management which is 
part of the Department of Interior.
    Gentlemen, we'll make your statements a part of the hearing 
record in their entirety and why don't, if you would beginning 
with you, Mr. Holtrop, if you could just summarize your 
comments.

   STATEMENT OF JOEL HOLTROP, DEPUTY CHIEF, NATIONAL FOREST 
       SYSTEM, FOREST SERVICE, DEPARTMENT OF AGRICULTURE

    Mr. Holtrop. Mr. Chairman and members of the committee I 
appreciate the opportunity to appear before you to provide the 
Department's views on the bills which are on the agenda today.
    S. 1802 Idaho Wilderness Boundary Modification Act. This 
bill would adjust the boundaries of the Frank Church River of 
No Return Wilderness and provide authorization for a land 
ownership adjustment to resolve conflicts related to 
unauthorized improvements. The Department would support the 
bill if amended to correct the survey description and provide 
for a more appropriate manner in which to resolve the 
associated land issues.
    The Diamond D Ranch is located in the Challis National 
Forest and surrounded by the Frank Church River of No Return 
Wilderness. In 2001 a boundary survey identified several 
unauthorized improvements associated with the ranch on National 
Forest System lands including a portion of a water diversion 
and transmission pipeline in the designated wilderness. The 
ranch owner has offered to enter into negotiations with the 
Forest Service to affect an exchange of the lands containing 
unauthorized improvements for other interests that could be 
more desirable for National Forest management. The bill would 
retract the wilderness boundary to exclude 10.2 acres in the 
area of the unauthorized improvements and add approximately the 
same acreage to the wilderness in a nearby location.
    The Department supports the bill's goals of improving 
wilderness characteristics while resolving long standing land 
management issues. We would like to work with the bill's 
sponsor and the committee to make technical corrections to the 
survey description and provide for a more appropriate land 
adjustment authority. We will support the bill with these 
amendments, and appreciate the opportunity to enhance the Frank 
Church River of No Return Wilderness.
    S. 1939 Santa Fe National Forest Title Claim Resolution Act 
would authorize and direct the Forest Service to quit claim 
approximately 6.2 acres of Federal land to Ramona and Boyd 
Lawson in satisfaction of a long standing land title claim. The 
Department supports the enactment of this bill. The land in 
question is in the Santa Fe National Forest and within the 
boundaries of the Pecos Wild and Scenic River.
    The Lawsons are successors to a land patent issued in 1888 
and they claimed that a government survey of the patented land 
had erroneously excluded about 12 acres where their house and 
outbuildings were located. There were significant legal and 
factual issues in dispute between the government and the 
Lawsons that this matter could have ended up in court.
    However the parties worked out a solution that is simple 
and equitable saving considerable time and expense for all. The 
Lawsons and the Forest Service agreed to limit the area of the 
claim to 6.2 acres which covers the land the Lawsons are 
actually occupying and using. In turn the Lawsons have agreed 
to convey to the Forest Service a conservation easement on the 
property to protect wild and scenic river values and to release 
the government from future claims. S. 1939 will authorize the 
Forest Service to implement this agreement and thereby allow 
the Lawsons the quiet enjoyment of their home while at the same 
time preserving the scenic and natural environs of the Pecos 
Wild and Scenic River.
    S. 2034 the Copper Salmon Wilderness Act. This bill would 
designate approximately 13,700 acres of the Rogue River-
Siskiyou National Forest as wilderness and designate segments 
of the North and South Forks of the Elk River as additions to 
the existing Elk Wild and Scenic River. The Department supports 
this bill but requests some important adjustments to the 
wilderness boundary. These adjustments would allow for road 
maintenance activities within road clearing limits and 
accommodate treatments of plantations that would improve forest 
health and habitat diversity while increasing fire fighter 
safety.
    The wilderness proposal comprises rugged forested land 
containing vast stands of Douglas fir and relatively rare Port 
Orford cedar trees. Most of the lands within the proposed 
wilderness are allocated as late successional reserves under 
the Northwest Forest Plan designed to serve as habitat for old 
growth related species. This allocation includes 2,267 acres of 
previously managed overstocked plantations.
    Most of the plantations adjacent to forest roads that 
comprise a portion of the wilderness boundary, about 1,000 
acres, were included in the Coastal Healthy Forest 
Environmental Analysis signed in 2007. Treatment of these 
stands would improve habitat conditions for fish and wildlife, 
reduce effects from insect and disease and provide defensible 
space for fire fighters in the event of a wildfire consistent 
with their allocation as late successional reserves. Wilderness 
designation would preclude this treatment.
    The Department would like to work with the bill's sponsor 
and the committee to offset the wilderness boundary inward 
along perimeter roads to implement planned treatments within a 
reasonable distance of the road while providing for routine 
road maintenance and to decrease the likelihood of incompatible 
motorized use in wilderness.
    Mr. Chairman and members of the committee, this concludes 
my testimony and I'm happy to answer any questions you may 
have.
    [The prepared statement of Mr. Holtrop follows:]

   Prepared Statement of Joel Holtrop, Deputy Chief, National Forest 
           System, Forest Service, Department of Agriculture
    Mr. Chairman and members of the committee, I appreciate the 
opportunity to appear before you to provide the Department's views on 
the bills which are on the agenda today.
      s. 1802, idaho wilderness boundary modification act of 2007
    This bill would adjust the boundaries of the Frank Church River of 
No Return Wilderness and provide authorization for a land ownership 
adjustment to resolve conflicts related to unauthorized improvements.
    The Department would support the bill if amended to correct the 
survey description and provide for a more appropriate manner in which 
to resolve the associated land issues.
    The Diamond D Ranch consists of three separate parcels of private 
land located in the Challis National Forest and surrounded by the Frank 
Church River of No Return Wilderness near Stanley, Idaho. In 2001, a 
boundary survey identified several unauthorized improvements associated 
with the ranch on National Forest System lands, including a portion of 
a water diversion and transmission pipeline in the designated 
wilderness area. Most of the unauthorized improvements, which also 
include fences, roads, and borrow pits, predate wilderness designation. 
The ranch owner has offered to enter into negotiations with the Forest 
Service to effect an exchange of the lands containing unauthorized 
improvements for other interests that could be more desirable for 
National Forest management.
    The wilderness configuration in this vicinity is an approximately 
10.2 acre triangular shaped area between two private parcels. Due to 
the adjacency of private lands and the unauthorized improvements, this 
area lacks the characteristics normally associated with designated 
wilderness. The bill would retract the wilderness boundary to exclude 
the 10.2 acres and expand the wilderness boundary to add approximately 
the same acreage to the wilderness in a nearby location. This would 
adjust the Frank Church River of No Return Wilderness with no net loss 
of designated wilderness, while improving its overall wilderness 
characteristics.
    In addition, through a waiver of qualifying criteria, the bill 
would give the Secretary the discretion to use the Small Tracts Act 
(P.L. 97-465) in order for the Forest Service to address the 
unauthorized improvements.
    The Department supports the bill's goals of improving wilderness 
characteristics while resolving long standing land management issues. 
However, as written, the bill contains technical errors in the survey 
description of the lands proposed to be excluded and included in the 
wilderness. It also contains a technical error in the description of 
the lands that would be subject to the waiver of the Small Tracts Act 
acreage requirement. In addition, the Department would prefer to use a 
different land adjustment authority than the Small Tracts Act, which is 
not appropriate to this situation.
    The Department would like to work with the bill's sponsor and the 
committee to make these technical corrections and provide for a more 
appropriate land adjustment authority. We will support the bill with 
these amendments and appreciate the opportunity to enhance the Frank 
Church River of No Return Wilderness.
      s. 1939, santa fe national forest title claim resolution act
    S. 1939 would authorize and direct the Forest Service to quitclaim 
approximately 6.20 acres of Federal land to Ramona and Boyd Lawson in 
satisfaction of a longstanding land title claim.
    The Department supports the enactment of this bill.
    The land in question is in the Santa Fe National Forest and within 
the boundaries of the Pecos Wild and Scenic River. The Lawsons are 
successors to a land patent issued in 1888 and they claimed that a 
government survey of the patented land had erroneously excluded about 
12 acres where their house and outbuildings were located.
    There were sufficient legal and factual issues in dispute between 
the government and the Lawsons that this matter could have ended up in 
court. However, the parties worked out a solution that is simple and 
equitable, saving considerable time and expense for all. The Lawsons 
and the Forest Service agreed to limit the area of the claim to 6.2 
acres which covers the land the Lawsons are actually occupying and 
using. In turn, the Lawsons have agreed to convey to the Forest Service 
a conservation easement on the property to protect wild and scenic 
river values, and to release the government from future claims. S. 1939 
will authorize the Forest Service to implement this agreement and 
thereby allow the Lawsons the quiet enjoyment of their home while, at 
the same time, preserving the scenic and natural environs of the Pecos 
Wild & Scenic River.
                 s. 2034, copper salmon wilderness act
    This bill would designate approximately 13,700 acres of the Rogue 
River-Siskiyou National Forest as wilderness and designate segments of 
the North and South Forks of the Elk River as additions to the existing 
Elk Wild and Scenic River.
    The Department supports this bill, but requests some important 
adjustments to the wilderness boundary. These adjustments would provide 
for better separation of motorized use from the wilderness, allow for 
road maintenance activities within road clearing limits (such as ditch 
cleaning and culvert and bridge maintenance), as well as to accommodate 
treatments of plantations that would improve forest health and habitat 
diversity while increasing firefighter safety.
    The wilderness proposal comprises 13,700 acres of rugged forested 
land surrounding Copper Mountain, Barklow Mountain, and Salmon Mountain 
adjacent to the Grassy Knob Wilderness. It contains vast stands of 
Douglas fir and relatively rare native Port Orford cedar trees. About 
ten percent of the proposed wilderness area is designated in the 
Siskiyou National Forest Plan as a ``Supplemental Resource Area'', 
considered highly productive habitat for wildlife and fish, critical 
for the maintenance of watershed condition, and with special recreation 
values. Lands within the proposed wilderness are primarily allocated as 
Late Successional Reserves (LSR) under the Northwest Forest Plan. LSRs 
are designed to serve as habitat for old growth-related species. This 
LSR allocation includes 2,267 acres of previously managed overstocked 
Douglas fir plantations.
    Using perimeter forest roads as the boundary designation would 
likely lead to unintended incursions of motorized vehicles and 
mechanized equipment into the wilderness. In addition most of the 
plantations adjacent to forest roads that comprise a portion of the 
wilderness boundary (about 1,000 acres) were included in the Coastal 
Healthy Forest Environmental Analysis signed in 2007. Treatment of 
these stands would improve habitat conditions for fish and wildlife, 
reduce effects from insects and disease, and provide defensible space 
for firefighters in the event of a wildfire, consistent with their 
allocation as Late Successional Reserve (LSRs). Wilderness designation 
would preclude this treatment.
    The proposed wilderness includes about nine miles of designated 
roads. All but two of those road miles are currently closed to 
vehicular traffic; however, these roads are highly engineered up steep 
slopes, with significant cuts and fills, culverts, and other 
constructed features. If the area is designated as wilderness, the 
forest would consider converting some of these roads into hiking and 
equestrian trails to improve access, but most would require 
decommissioning to protect water quality and fisheries resource values. 
This would require heavy equipment to remove culverts and contour the 
land to reduce erosion, as well as significant investment.
    The Department would like to work with the bill's sponsor and the 
committee to offset the wilderness boundary inward along perimeter 
roads to implement planned treatments within a reasonable distance of 
the road, provide for routine road maintenance, and to decrease the 
likelihood of incompatible motorized use in wilderness. We also request 
that the bill include the date of the map referencing the intended 
wilderness configuration.
    The bill would designate segments of the North and South Forks of 
the Elk River as additions to the existing Elk Wild and Scenic River. 
The Rogue River-Siskiyou National Forest completed an extensive wild 
and scenic river inventory and, while both tributaries are free-
flowing, neither was judged to have an outstandingly remarkable value. 
Nevertheless, in recognition of the value of managing the Elk River as 
a system that contributes to one of the most important and valuable 
runs of anadromous fish in coastal Oregon, the Department does not 
oppose the proposed additions in this bill.
    Mr. Chairman and members of the committee, this concludes my 
testimony. I am happy to answer any questions you may have at this 
time.

    Senator Wyden. Very good. Mr. Nedd, welcome.

STATEMENT OF MICHAEL NEDD, ASSISTANT DIRECTOR, MINERALS, REALTY 
AND RESOURCE PROTECTION, BUREAU OF LAND MANAGEMENT, DEPARTMENT 
                        OF THE INTERIOR

    Mr. Nedd. Mr. Chairman and members of the committee. Thank 
you for inviting me to testify today on a number of bills of 
interest to the Bureau of Land Management and the Department of 
Interior. Because I am presenting testimony on six bills I will 
very briefly summarize each and ask that my entire testimony be 
included in the record.
    Senator Wyden. Without objection, it's so ordered.
    Mr. Nedd. The Department supports S. 1143 the Jupiter Inlet 
Lighthouse Outstanding Natural Area Act which would designate 
126 acre, including Jupiter Inlet Lighthouse and the 
surrounding areas as an outstanding natural area within the 
Bureau of Land Management National Landscape Conservation 
System. This bill seeks to build onto many successful 
partnerships and the collaboration already in place for the 
Jupiter working group.
    S. 1377, the Southern Nevada Limited Transition Area Act, 
would convey without consideration approximately 502 acres of 
BLM public land to the city of Henderson, Nevada by economic 
development adjacent to the Henderson Executive Airport. The 
bill permits the city of Henderson to sell any portion of the 
conveyed land for non-residential development to a competitive 
bidding process. Eighty-five percent of the revenues generated 
from the sales would be deposited into this special account 
established by the Southern Nevada Public Land Management Act 
and used by the Secretary of Interior for the use specified in 
the Act.
    During consideration of similar legislation in the 109th 
Congress we raised several concerns. We greatly appreciated the 
work of the sponsor of the bill to address those concerns as 
reflected in S. 1377. The BLM supports S. 1377.
    S. 1433 the Thomas P. O'Hara Public Land Career Opportunity 
Act amends the Alaska National Interest Land Conservation Act 
to provide competitive status to local hire Federal employees 
in Alaska. In discussing this program with the Office of 
Personnel Management during the course of reviewing S. 1433, 
the Department of Interior and Agriculture learned that local 
hire employees have been mistakenly classified as being outside 
of the competitive service. According to OPM because ANILCA 
specifically provides the Veteran's preference applied to these 
positions, the positions are by their nature competitive and 
local hire employees should have been classified as being 
eligible for competitive status.
    Therefore we suggest that S. 1433 be amended to de-reg the 
secretaries to reclassify as part of the competitive service 
those employees who are hired into permanent position under the 
local hire provision of ANILCA and are currently employed in 
those positions. In addition provisions should be made for 
former local hire employees who were competitively hired and 
who served the requisite amount of time in their position to 
apply to the Secretary for competitive status. We would be 
happy to work with the sponsor and the subcommittee to resolve 
these issues.
    S. 1608 the Southern Nevada Readiness Center Act would 
convey without consideration land from Clark County, Nevada to 
the Nevada division of State lands for use by the Nevada 
National Guard. All rights, title and interest in these lands 
was conveyed by the Bureau of Land Management to Clark County, 
Nevada in 1999 as directed by the Southern Nevada Public Land 
Management Act of 1998 for inclusion in the McCarran Airport 
cooperative management area. The BLM is mindful that S. 1608 
conveys these lands from one public entity to another for 
important national defense and security purposes. The BLM 
supports the legislation and we recommend some technical 
modification.
    S. 1740 amends the North Dakota Enabling Act and related 
laws to provide for changes in the management and distribution 
of certain North Dakota trust funds. The Administration has no 
comments on or any objection to this legislation.
    S. 1940 the Rio Puerco Watershed Management Program 
Reauthorization Act provides a 10-year reauthorization for the 
Rio Puerco Management Committee, a collaborative watershed 
organization established in 1996. Under this program the BLM 
has partnered with State, Federal and tribal entities, soil and 
water conservation district representatives of country 
government, residents from the rural communities within the 
watershed, environmental and conservation groups and the public 
to restore and protect the long term sustainability of the 
watershed. The BLM strongly supports enactment of S. 1940.
    Mr. Chairman and members of the subcommittee, thank you for 
the opportunity to testify. I will be happy to answer any 
questions.
    [The prepared statements of Mr. Nedd follow:]

Prepared Statement of Michael Nedd, Assistant Director, Mineral, Realty 
 and Resource Protection, Bureau of Land Management, Department of the 
                                Interior
    Thank you for inviting me to testify on S. 1143, the Jupiter Inlet 
Lighthouse Outstanding Natural Area Act. The Act would designate the 
126 acres, including Jupiter Inlet Lighthouse and the surrounding area, 
as an Outstanding Natural Area (ONA) within the Bureau of Land 
Management's (BLM) National Landscape Conservation System (NLCS). The 
Department supports S. 1143.
                               background
    The 126-acre site proposed for designation as the Jupiter Inlet 
Lighthouse Outstanding Natural Area is an oasis of green in highly 
urbanized Palm Beach County, Florida and straddles the borders of the 
Village of Tequesta and the Town of Jupiter. The lighthouse, which 
stands 156 feet above the surrounding coastline, is the oldest existing 
structure in Palm Beach County, dating from 1860. The lighthouse 
continues as an active United States Coast Guard aid to maritime 
navigation. The Loxahatchee River Historical Society manages portions 
of the site through a license and conducts popular tours of the 
lighthouse. On the remaining southern portion of the tract, the Town of 
Jupiter manages intensive recreation on an 18-acre public park.
    Aside from the natural significance of this site, the dynamic 
partnerships of the Jupiter Working Group and collaborative 
relationships make this site quite unique. The management of the 126 
acres rests with six separate entities, BLM, U.S. Coast Guard, Palm 
Beach County, Town of Jupiter, Village of Tequesta, and Loxahatchee 
River Historical Society. These entities currently work cooperatively 
through BLM's Jupiter Inlet Coordinated Resource Management Plan (CRMP) 
and the Jupiter Inlet Working Group (working group) to manage the area 
as a harmonized unit. For example, Palm Beach County's Department of 
Environmental Resources Management has partnered directly with BLM on 
habitat improvements, providing matching funds and labor for virtually 
all habitat-related projects. One activity was the restoration of 
significant scrub and wetland communities within the area. Emphasis was 
placed on habitat improvements for the 18 special status species found 
within the area, including the removal of thousands of exotic trees and 
shrubs along with replanting of native vegetation. This work has 
significantly improved the habitat for scrub jays, gopher tortoises and 
federally endangered plant species. The working group combined 
resources to build an award-winning tidal lagoon and wetland connected 
to the Indian River Lagoon, which is one of the most diverse estuaries 
in the country. Among the many tools used to improve the habitat are 
successful prescribed burns, which reduced fuel loads on this urban 
tract.
    The community involvement at Jupiter Inlet Lighthouse goes beyond 
the governmental agencies. For example, the Loxahatchee River 
Historical Society actively manages the Jupiter Inlet Lighthouse and 
grounds, and provides interpretive tours to tens of thousands of 
visitors each year. They have procured grants and worked with the Town 
of Jupiter to complete nearly one million dollars in restoration of the 
Jupiter Inlet Lighthouse, as well as complete the renovation of a WWII 
vintage building that now houses the museum. Additionally, the Jupiter 
High School Environmental Resources and Field Studies Academy has 
donated thousands of hours of hands-on restoration work within the 
proposed ONA.
                                s. 1143
    S. 1143 seeks to build on the many successful partnerships already 
in place by designating the 126-acre site as the Jupiter Inlet 
Lighthouse Outstanding Natural Area within the BLM's NLCS. The bill 
follows in the footsteps of the Yaquina Head Outstanding Natural Area 
along the Oregon coast established by Congress in 1980. In order to 
safeguard the buildings and public lands surrounding the Jupiter Inlet 
Lighthouse, the bill provides protections for the area while 
encouraging and enabling active community support and involvement.
    The Department would like the opportunity to work with Senator 
Nelson and the committee on some technical amendments including a 
correct map reference and other minor issues.
    Thank you for the opportunity to testify in support of S. 1143. I 
will be happy to answer any questions.
                                 ______
                                 
   Prepared Statement of Michael Nedd, Assistant Director, Minerals, 
 Realty and Resource Protection, Bureau of Land Management, Department 
                              of Interior
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to testify on S. 1377, the Southern Nevada Limited 
Transition Area Act. S. 1377 would convey without consideration 
approximately 502 acres of BLM public lands, defined in the bill as the 
``transition area,'' to the City of Henderson, Nevada, for economic 
development adjacent to the Henderson Executive Airport. The BLM 
recognizes the extensive residential growth occurring in the City of 
Henderson and understands the need for the City to plan land use in 
such a way that development around the Henderson Executive Airport is 
compatible with the nature of airport operations. During consideration 
of similar legislation in the 109th Congress (S. 1056), we raised 
several concerns. The BLM greatly appreciates the work of the sponsors 
of the bill to address those concerns, as reflected in the text of S. 
1377. We support S. 1377 as introduced.
    S. 1377 establishes development areas around the Henderson 
Executive Airport similar to the Airport Environs Overlay District--
otherwise known as the McCarran Airport Cooperative Management Area 
(CMA)--established by the Southern Nevada Public Lands Management Act 
(SNPLMA), Public Law 105-263, that ensures compatible development 
around McCarran Airport. The public lands proposed for conveyance in S. 
1377 are directly west and south of the Henderson Executive Airport, 
which is east of Interstate-15 and north of the Sloan Canyon National 
Conservation Area. These lands are within the disposal boundary 
established in SNPLMA and have been identified for disposal by the BLM 
as part of SNPLMA's land disposal process.
    S. 1377 directs the City of Henderson to plan and manage the lands 
for nonresidential development, and requires that any development 
comport with noise compatibility requirements defined in section 47504 
of title 49, United States Code. The bill permits the City of Henderson 
to sell any portions of the conveyed lands for nonresidential 
development through a competitive bidding process, but for not less 
than fair market value, and subject to the noise compatibility 
requirements. The City of Henderson may also elect to retain parcels 
for recreation or other public purposes consistent with the Recreation 
and Public Purposes Act.
    The revenue generated from any sales of the lands by the City of 
Henderson would be distributed consistent with the provisions of 
Section 4(e)(1) of SNPLMA, which allow for the deposit of 85 percent of 
the proceeds from land sales into the Special Account; 10 percent paid 
directly to the Southern Nevada Water Authority; and 5 percent paid 
directly to the State of Nevada for use in the general education 
program of the State.
    Again, thank you for the opportunity to work with the sponsors of 
this bill in addressing our various concerns, including modifications 
relative to the terms and conditions of future land sales by the City 
of Henderson; the reversionary language; and the revised map. We 
support S. 1377 and efforts to appropriately plan for development 
around the Henderson Executive Airport.
                                 ______
                                 
Prepared Statement of Michael Nedd, Assistant Director, Mineral, Realty 
   and Resource Protection, Bureau of Land Management, Department of 
                                Interior
    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. 1433, a bill to amend the Alaska 
National Interest Lands Conservation Act to provide competitive status 
to certain federal employees in Alaska.
    S. 1433 is named after Thomas P. O'Hara, a National Park Service 
employee who was a pilot at Katmai National Park and Preserve. Tom and 
an employee of the U.S. Fish and Wildlife Service were on a mission in 
the Alaska Peninsula National Wildlife Refuge on December 19, 2002, 
when their plane went down. Unfortunately, Tom did not survive the 
crash.
    Tom O'Hara was an experienced pilot with thousands of hours of 
service, whose skills benefited the residents of Bristol Bay 
communities--an area where Tom grew up and lived. Tom was hired because 
of a special local hire program for conservation units in Alaska, which 
was authorized by Section 1308 of the Alaska National Interest Lands 
Conservation Act (ANILCA). This program allows bureaus in the 
Department of the Interior and the Forest Service in the Department of 
Agriculture to hire ``any individual who, by reason of having lived or 
worked in or near a conservation system unit, has special knowledge or 
expertise concerning the natural or cultural resources of such unit . . 
. .'' These local individuals may be selected without regard to normal 
civil service rules requiring formal training or experience.
    The program has been used with great success across Alaska. The 
Departments have been administering this program as an excepted service 
program meaning that local hire employees are at a disadvantage when 
applying for other jobs within Alaska or elsewhere in the country. Some 
employees have overcome this disadvantage because of additional formal 
education, training or experience. But for others, particularly in 
small, remote locations, this transition to competitive status is 
difficult.
    In discussing this program with the Office of Personnel Management 
during the course of the review of S. 1433, the Departments learned 
that local hire employees have been mistakenly classified as being 
outside of the competitive service. Because ANILCA specifically 
provides that veterans preference applies to these positions the 
positions are by their nature competitive and local hire employees 
should have been classified as being eligible for competitive status.
    S. 1433 provides that local hire employees, after two years of 
satisfactory service, will be converted to competitive status. There 
are many excepted services and positions within the Federal government. 
The Office of Personnel Management is rightly concerned about providing 
a group of excepted status employees with this benefit which many 
others have sought and been denied. However, in this case, it appears 
these local hire employees were mistakenly placed into excepted service 
status. Therefore we suggest that S. 1433 be amended to direct the 
Secretary of the Interior and the Secretary of Agriculture to 
reclassify as part of the competitive service those employees hired 
into permanent positions pursuant to the local hire provisions of 
ANILCA and currently serving in those positions. In addition, 
provisions should be made for former local hire employees who were 
competitively hired and who served the requisite amount of time in 
their positions to apply to the Secretary for competitive status.
    This legislation will provide a lasting memorial to the excellent 
work of Tom O'Hara and other employees who serve the public with their 
expertise and knowledge of Alaska and help preserve our public lands 
for others to enjoy. We would be happy to work with the Committee on 
bill language that would accomplish our suggested amendments.
    Thank you for the opportunity to testify in support of S. 1433. I 
will be happy to answer any questions.
                                 ______
                                 
   Prepared Statement of Michael Nedd, Assistant Director, Minerals, 
 Realty and Resource Protection, Bureau of Land Management, Department 
                              of Interior
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to testify on S. 1608, the Southern Nevada Readiness Center 
Act. S. 1608 would convey without consideration between 35 and 50 acres 
of land from Clark County, Nevada, to the Nevada Division of State 
Lands for use by the Nevada National Guard for defense and security 
training. All right, title, and interest to these lands was conveyed by 
the BLM to Clark County, Nevada, in 1999, as directed by Section 4(g) 
of the Southern Nevada Public Land Management Act of 1998 (SNPLMA), for 
inclusion in the McCarran Airport Cooperative Management Area (CMA).
    The CMA was established in 1992 through an agreement between Clark 
County and BLM to manage development around McCarran Airport, which 
services the greater Las Vegas area. As directed by SNPLMA, 
approximately 5,000 acres of public lands was conveyed by the BLM to 
Clark County for inclusion in the CMA boundary. SNPLMA requires that 
Clark County manage the lands in the CMA in accordance with 49 U.S.C. 
47504, relating to airport noise compatibility planning, so that 
development in the CMA is compatible with the nature of airport 
operations. Further, section (4)(g) of SNPLMA requires that any 
conveyance of CMA lands by Clark County be for fair market value, and 
the revenue distributed according to the formula outlined in Section 
(4)(g) of SNPLMA.
    The BLM is mindful that S. 1608 conveys the CMA lands from one 
public entity to another for important national defense and security 
purposes. In balancing these considerations against the provisions of 
SNPLMA that require the sale of CMA lands for fair market value, the 
BLM supports the bill and the conveyance of the CMA lands for no 
consideration. However, we suggest that the bill be amended to include 
a provision that if the State of Nevada ceases to use the lands for the 
purpose intended in S. 1608, the lands revert to the County to be 
managed consistent with the provisions of SNPLMA. We also recommend an 
amendment to correct the acreage identified in S. 1608 from ``between 
35 and 50 acres'' to ``approximately 51 acres.''
    Thank you for the opportunity to testify on S. 1608. We look 
forward to working with the sponsor and the Committee on this important 
piece of legislation.
                                 ______
                                 
Prepared Statement of Michael Nedd, Assistant Director, Mineral, Realty 
   and Resource Protection, Bureau of Land Management, Department of 
                                Interior
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to testify on S. 1740, the North Dakota Enabling Act and 
First Morrill Act Amendments Act of 2007.
    S. 1740 would amend the Act of February 22, 1889 and the Act of 
July 2, 1862 to provide for changes to the management and distribution 
of North Dakota trust funds into which proceeds from the sale of public 
land are deposited. It also includes language providing for Congress' 
consent to amendments to the Constitution of North Dakota proposed by 
House Concurrent Resolution No. 3037 of the 59th Legislature of the 
State of North Dakota and approved by the voters on November 7, 2006. 
This resolution requires permanent trust funds to be managed to 
preserve their purchasing power, to provide stable distributions to 
fund beneficiaries and to benefit fund beneficiaries.
    The Office of Legal Counsel of the Department of Justice has 
advised us that Congress may amend State enabling acts. As S. 1740 
relates to North Dakota's use of its trust funds, the Administration 
has no comments on or objections to the bill.
    Thank you for the opportunity to testify.
                                 ______
                                 
Prepared Statement of Michael Nedd, Assistant Director, Mineral, Realty 
   and Resource Protection, Bureau of Land Management, Department of 
                                Interior
    Thank you for the opportunity to testify on S.1940, the Rio Puerco 
Watershed Management Program Reauthorization Act. The legislation 
provides a 10-year reauthorization for the Rio Puerco Management 
Committee (RPMC), a collaborative watershed organization established by 
Section 401 of the Omnibus Parks and Public Lands Management Act of 
1996 (P.L. 104-333). Through the collaborative processes of the RPMC, 
the BLM has partnered with Federal, state, and Tribal governments, 
private individuals, and environmental organizations, to improve 
management practices and protect the long-term sustainability of the 
watershed. The legislation also adds the Environmental Protection 
Agency (EPA) as a member of the RPMC, formalizing the cooperative role 
it has played in these efforts. The BLM strongly supports enactment of 
S.1940.
    The Rio Puerco Watershed, located in west-central New Mexico, 
contributes less than 10 percent of the water, but nearly 70 percent of 
the silt, to the Rio Grande north of the Elephant Butte Reservoir. 
According to the Corps of Engineers, soil erosion within the basin 
surpasses that of any other watershed in the country. The New Mexico 
Environment Department has classified the Rio Puerco as a Category I 
impaired watershed, primarily because of the high levels of 
sedimentation.
                          rpmc accomplishments
    The RPMC has effectively built on initiatives begun by a locally 
led public-private stakeholders group based in Cuba, New Mexico. The 
RPMC is a collaborative watershed organization consisting of state, 
Federal, and Tribal entities, soil and water conservation districts, 
representatives of county government, residents from the rural 
communities within the watershed, environmental and conservation groups 
and the public. It is a consensus group charged with compiling data and 
developing best management practices to reduce erosion, increase native 
vegetation, and improve riparian habitat while supporting the 
watershed's rural, agrarian, and cultural traditions.
    The RPMC and its partners received grants and awards, in part based 
on the diversity of entities participating and on its track record in 
showcasing how the watershed approach can yield measurable success. The 
EPA Administrator identified the RPMC as one of the winners of the 2003 
Watershed Initiative grants, with an award of $700,000. The Rio Puerco 
Alliance, a 501(c)3 non-profit organization formed in 2006, received a 
grant of $840,000 in August 2007 for the Targeted Watershed Restoration 
Initiative in Torreon Wash. Projects on which the RPMC have worked 
collaboratively have received 319 grants from the New Mexico 
Environment Department and the EPA's Watershed Initiative Program.
    Among its accomplishments, the RPMC has:

  <bullet> launched a community involvement initiative that started 
        with listening sessions held in local communities and developed 
        into a series of training and demonstration workshops on 
        conservation practices;
  <bullet> developed a Watershed Restoration Action Strategy, to 
        address specific water quality problems.

    In cooperation with the New Mexico State Highway and Transportation 
Department, the RPMC is redirecting the Rio Puerco from an unstable 
artificial 1.1 mile channel to its natural 2.2 miles of meandering 
channel. This project is funded through a New Mexico Environment 
Department Clean Water Act grant and through assistance from Sandoval 
County and the New Mexico Highway and Transportation Department. This 
project will reduce approximately 21 tons of sediment that have been 
lost annually since the river was diverted.
    Through another New Mexico Environment Department Clean Water Act 
grant, the RPMC worked with private landowners in two degraded 
tributaries to the Rio Puerco to create a showcase water quality 
improvement project through erosion control, livestock grazing 
management, and control of undesirable vegetation.
    The 1996 Act that created the RPMC authorized $7.5 million over 10 
years. The authority expired on November 12, 2006. Prior to its 
expiration, the RPMC used this funding to leverage grants for resource 
protection and has accepted in-kind contributions for on-the-ground 
project work.
                         navajo youth projects
    In 2007, the BLM, the Navajo Water Resources Department and the 
State of New Mexico provided funding for on-the-ground Navajo Youth 
Projects in six Chapters of the Eastern Navajo Agency. Through this 
collaborative effort, six youth Projects have hired about 100 Navajo 
youth to construct erosion control structures on Tribal, BLM, and state 
lands within grazing allotments held by the Navajo Nation. The program 
also included environmental education training on the concepts of 
watershed management. Several leaders of the Navajo Nation have 
expressed their conviction that Navajo youth need this important tie 
back to the land.
    Thank you again for the opportunity to testify on S.1940. The 
collaborative nature of the Rio Puerco Management Committee has 
resulted in successful implementation of activities to restore and 
protect the watershed, and the BLM looks forward to continuing this 
important work. I would be glad to answer your questions.

    Senator Wyden. Gentlemen, thank you both for being here and 
for the constructive approaches that the Department of Interior 
and the Department of Agriculture have had with respect to 
this. Both sides of the aisle and this side of the dais are 
anxious to work with you.
    Senator Craig has joined us. It's always been our custom to 
let our colleagues make any statement they would choose. Then 
we'll go straight to questions.
    Senator Craig.
    Senator Craig. Why don't I just take my round with 
questions? I've got a couple of comments I'll make at that 
time. Thank you, Mr. Chairman.
    Senator Wyden. Very good. Gentlemen and maybe I'll start 
with you, Mr. Holtrop.
    On the Copper Salmon, as you know, there's been broad 
support for this in the communities trying to find some person 
on the coast who's not just cheering for this legislation 
because there is that kind of grassroots support. You all have 
reflected some concerns about the boundaries. I think it's fair 
to say we'd all consider them fairly minor. Let me just ask a 
couple of questions.
    Mr. Holtrop, you noted that there were some old roads 
included in our proposal. The roads are currently drivable and 
what is your sense about decommissioning efforts that you would 
think might be necessary given the state of those roads?
    Mr. Holtrop. Yes, my understanding is there's about nine 
miles of existing roads inside the proposed wilderness and of 
those nine miles, seven of them are currently closed to public 
use and two are open. There's work that would need to be done 
on those roads because several of them are fairly highly 
engineered roads because of the steep and rugged terrain that 
they're in. It would be necessary to do some work to remove 
culverts, restore the roads into a more appropriate status for 
use as trails or just completely restore the roads so that 
events over time would not cause those roads to become a 
problem in terms of water quality and some of those types of 
things.
    Our sense is--we've got a very rough estimate of maybe 
300,000 dollars worth of work in order to accomplish that. If 
the legislation passes as we're supportive of that happening, 
what we would intend to do would be do a minimum tools 
analysis. If that minimum tools analysis required us to do some 
mechanized activity in the wilderness after its designation in 
order to restore those roads, that's what--that's the approach 
we would take.
    Senator Wyden. That was really my second question. So you 
would think this minimum tools policy that you all have would 
be sufficient to essentially address the decommissioning work. 
Is that correct?
    Mr. Holtrop. That's correct.
    Senator Wyden. Ok. One other area you mentioned concerns 
with the boundaries selected and a debate about how you go 
about, you know, choosing exactly these boundaries. Now, 
doesn't the Forest Service Guidance Policy suggest ease of 
management as a basis for selecting boundaries?
    Mr. Holtrop. Yes, it does.
    Senator Wyden. So, from the standpoint of trying and to 
address these boundary, you know, issues, we can use the 
Wildeness Act, is one way to go about doing it.
    Mr. Holtrop. That's correct. I think what--the position 
that we're taking on that is, and this is done fairly commonly 
in many wilderness designations. Where there's an offset from 
the road that's provided of a standard length so that if 
there's a situation in which some ditch work needs to be done, 
or if a road slides because of a weather event and there needs 
to be some reconstruction done on it and the most logical 
approach to get that work done is to--moving inside what is 
currently designated wilderness if it were right at the road 
prism by having some offset. It provides us some opportunity to 
accomplish that type of work while not having to seek 
Congressional authority to make those types of adjustments.
    Senator Wyden. That was exactly what we've been interested 
in. We want to make sure that you all can essentially use tools 
you've got today. You know, this question of the minimum tools 
policy as it relates to decommissioning work. The question of 
the Wilderness Act and how you would use that as a tool to deal 
with boundaries and address these managing, essentially 
manageability issues, that all sounds like something we can 
work together on. Do it quickly and cooperatively.
    Mr. Nedd, I appreciate your testifying and really don't 
have any questions for you because you were so cooperative in 
your opening statement. We can kind of spare you the battering 
and the punishment that witnesses often get. But seriously, we 
thank you for your cooperation.
    Both of you have been very helpful and we're going to get 
these bills passed. It is a good package and a bipartisan 
package of colleagues have noted. Let me let Senators now speak 
starting with Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman. I 
agree that it is non-controversial, no real objections.
    It does raise the question that I mentioned earlier about 
some of these land exchange processes. Did this just not become 
non-controversial after it came legislatively? Or how is the 
best way to do that? That's something that concerns people in 
Wyoming. Where do you go legislatively? When do you try to get 
an exchange done? I hear that exchanges can take ten to fifteen 
years possibly, protracted length of time.
    So, No. 1, could you spend a couple of minutes describing 
the process. How it works? How long it takes for even a non-
controversial exchange? Then are there additional tools you 
need to see if we are able to do some things there so you don't 
have to have folks coming legislatively?
    Mr. Holtrop. I'd be happy to do that. I want to say that 
that's a very good question. One of the reasons I know it's a 
very good question is it is one of the questions I asked my own 
staff to provide some advice on that just in the last few years 
as well. One of the things that I found out, not surprisingly 
really, is that those exchanges that arise to my level or even 
more so that rise to your levels tend to be the ones that are 
very controversial and difficult and have some issues related 
with them.
    Over the past 10 years or an analysis from 1995 through 
2004, the average length of an exchange is around two and a 
half years. Now that doesn't mean that there aren't some that 
do take many years more than that, but generally those tend to 
be the more controversial ones.
    In terms of the way this process works is the parties to a 
proposed exchange sign an instrument that they both agree that 
this is something they want to pursue. That instrument includes 
information around who's going to pay the costs of any 
environmental analysis and the other, some of the survey 
standards or some of the title standards that are going to be 
expected. All of that work gets laid out with this instrument. 
Then it works its way through all those processes to the final 
recording of the deeds.
    One--the other question that I heard in your question was 
when is it time for--when is it necessary for legislation as 
opposed to an Administrative process to carry it out? I think 
the two pieces of legislation that I, other than the Copper 
Salmon that I testified on just this afternoon are a couple of 
examples of those types of situations where legislation is 
needed. I would say that legislation is needed when we don't 
have the authority to do something administratively.
    In the case of the Frank Church River of No Return 
Wilderness we don't have the authority to do an exchange that 
includes--that's inside the wilderness. So what--the 
legislation that was needed in this case was to resolve the 
unauthorized improvements inside wilderness. In the case of the 
Santa Fe National Forest and the Pecos Wild and Scenic River, 
that is a piece of property that required both our authority to 
dispose of property which we don't have the authority to do 
except if authorized on a case by case basis. Plus it's 
property within a Wild and Scenic River designation which also 
requires your attention in order to have us have the authority 
to do that.
    Senator Barrasso. Thank you. That was a very thorough, a 
good explanation. Thank you very much. No further questions, 
Mr. Chairman.
    Senator Wyden. I thank my colleague.
    Senator Smith.
    Senator Smith. Mr. Holtrop, generally does wilderness 
designation affect tribal access to Federal land with respect 
to gathering of foods and materials for cultural use?
    Mr. Holtrop. No, it does not. I appreciated the concern 
that you expressed in your statement about a relationship with 
the Coquille tribe. The Rogue River and Siskiyou National 
Forest has a regular on-going consultation relationship with 
that tribe. It is our expectation and I'm convinced that this 
piece of legislation, other than the reduction or the 
elimination of the use of mechanized equipment in the 
wilderness which would apply to all users. The tribe would 
continue to enjoy the access that they need for their cultural 
activities and that would be our intent.
    Senator Smith. That is my understanding as well. I 
appreciate your reasserting it. But I wonder if it would be 
possible for the Forest Service to go the next step and 
memorialize that understanding to increase the comfort level of 
the Coquille tribe with some kind of memorandum of 
understanding. Would that be acceptable?
    Mr. Holtrop. We would be happy to work with you, with the 
tribe to pursue whether that would be helpful to them. We could 
pursue looking into that.
    Senator Smith. I think that is important as a show of 
respect and according to dignity to Native Americans that their 
sovereign governments deserve. I think that kind of a 
memorialization would be appropriate and would allay any 
remaining questions. So I would encourage that and will work 
with you on that.
    Senator Wyden. I thank my colleague.
    Senator Craig.
    Senator Craig. Mr. Chairman, thank you very much. 
Gentlemen, thank you. I had one piece of legislation and I 
think Joel spoke to it in relation to what the Forest Service 
can and cannot do and that's 1802 as it relates to some 
boundary modification and some element at the edge of the Frank 
Church with the Diamond D Ranch.
    I understand you support this legislation and it resolves 
that question and creates some boundary corrections that are 
necessary for the integrity of the wilderness and for the 
private property involved. But there was another piece of 
legislation that we pulled at the last moment because the 
Administration of the Forest Service spoke to it. Some concern 
about language and in a negative way.
    I say to you, Mr. Chairman, to you, Joel, this is an 
interesting situation. It has to do with some land exchanges up 
in the Ketchum, Idaho, Sun Valley area consistent with what the 
community of Ketchum needs and what Sun Valley Company needs 
and not inconsistent with use and the Forest Service. But I was 
told, that the language could not be supported because it 
didn't provide anything of real benefit to the Forest Service. 
However it should be noted that it didn't hurt the Forest 
Service either.
    The reason I say this is because of the uniqueness of this 
summer in Idaho and in other Western States. We burned all 
during the month of August. The great community of Ketchum and 
the great resort of Sun Valley, the mother of all ski resorts 
for our nation, almost burned down. We burned a semi-circle 
around it on Federal Forest land. It's very important for me to 
say right up front, the U.S. Forest Service did a phenomenal 
job. You're to be congratulated, Joel.
    You had an incident commander up there by the name of 
Jeannie. I believe she's from the Humboldt, who walks on water 
in Ketchum, Idaho today because she was a strong leader who 
made decisions when decisions had to be made, at a time when we 
could have lost 10 billion dollars worth of assets, private and 
public. I was telling Secretary Rey last night that you had one 
of the finest incident command centers in the nation, a 12 
million dollar ski lodge that you fully occupied for the 
benefit of fighting the fires.
    The community rolled out and fed the fire fighters and 
clothed them and gave them things. My wife and I were up there 
at an ice show at the lodge in the middle of the fires and here 
were fire fighters at the ice show at the courtesy of Sun 
Valley Corporation. I get back here thinking, gee, we're going 
to get this bill put together and we're going to facilitate all 
of this to find out that the Forest Service wasn't happy with 
the language, even though they didn't lose anything. They 
didn't gain anything. They thought they needed to gain 
something from it.
    Bottom line is, Joel, we're going to move this legislation. 
We want to work with you to resolve the differences. Here is a 
community of people and a company that gave to the cause to 
save themselves and help you save Federal property and public 
resource in a way that I have never seen a community in my 
State give before.
    We need to get this resolved. The time is short. We want to 
move this legislation. So in the next week let's find the 
language, get it resolved and move it forward.
    I think it's going to be to the benefit of public land 
resource up there: a company, Sun Valley Corporation, yes, the 
community of Ketchum, yes, public access, yes, all of those 
kinds of things that'll be important. So, let's see if we can't 
get it solved.
    Mr. Holtrop. Senator Craig, I would just like to say a 
couple of things. First of all, thank you very much for the 
compliments to our incident commander, Jeannie Pincha- Tully 
who is one of our fine incident commanders. I certainly concur 
with all that you said about what the community of Ketchum has 
been through. What the resort has been through.
    One of the many fire fighters on that fire was my daughter.
    Senator Craig. Really?
    Mr. Holtrop. So I was also pleased to hear what you had to 
say from that perspective as well.
    I'll say that the reason that the Forest Service had 
concerns with the piece of legislation was just lack of 
information about the parcels. We--I am absolutely convinced 
that we can work to reach a resolution that is responsive to 
the concerns that Sun Valley Resort has, that is equitable for 
the Forest Service and the resort. Maybe even legislation not 
being necessary if some of the parcels that are identified are 
National Forest land to private land so that a straight 
exchange.
    The reason this was being legislated was because the BLM 
parcel was involved and that requires legislation because of 
that complication. I think there are multiple options for us to 
get this done. I look forward to working with you.
    Senator Craig. Super. Thank you.
    I'm glad to hear your daughter had a positive experience up 
there.
    Mr. Holtrop. Thank you.
    Senator Craig. Mr. Chairman, I don't know what our total 
acreage is yet. I do know we, collectively, the taxpayers and 
the U.S. Forest Service have spent over 130 million dollars 
already in Idaho fighting fire this year. We've had phenomenal 
fires, nearly lost the great Sun Valley Resort and could have 
lost a new resort. The effort was ongoing, is ongoing, but the 
effort was outstanding. It is very easy to compliment a job 
well done. I thank you.
    Thank you, Mr. Chairman.
    Senator Wyden. I thank my colleague. What we'll do is we'll 
have the majority and minority staff get with your folks and 
get to work on these issues involving Ketchum as we've done so 
often in the past.
    Thank you both and look forward to working with you. Thank 
you both for your cooperation.
    Let's bring forward Mayor Auborn and Jim Rogers.
    Gentlemen, while you're sitting down, let me ask you to 
ponder. I think with 11 minutes we'd probably better go vote 
and come back. We were going to try to see if we can get it all 
in, but you all have made a long, long trek across the land. I 
think with a leave of Senator Smith and Senator Craig, we'll go 
over and vote real quickly and then we'll come back.
    We stand in recess for 10 minutes let us say. Thanks.
    [Recess]
    Senator Wyden. Let us have the subcommittee come to order. 
It's a great to have Oregonians back. I know Senator Smith 
wants to participate as well. So we'll something of movable 
feat this afternoon with the Congressional schedule and Mayor 
why don't you take a few minutes to make your comments and Mr. 
Rogers, you as well. It's a long journey and I'm sorry for the 
hectic nature of the afternoon.
    Mayor, please begin.

        STATEMENT OF JIM AUBORN, MAYOR, PORT ORFORD, OR

    Mr. Auborn. Chairman Wyden and members of the subcommittee, 
thank you for the opportunity to testify today. My name is Jim 
Auborn. I am the Mayor of the city of Port Orford. I'm here 
today in strong support of S. 2034, the Copper Salmon 
Wilderness Act. I'm a native Oregonian and a long term 
Republican, born and raised in the Portland area, who retired 
to Port Orford after a career in the U.S. Navy, U.S. Navy 
Reserves and Bell Laboratories.
    I served as an engineering officer on nuclear submarines 
while on active duty and managed research programs for the 
Office of Naval Research in the Reserves where I retired at the 
rank of Captain. I retired from Bell Laboratories as Director 
of the Government Communications Laboratory and served as Vice 
President in Research for Terrabeam Corporation for 2 years 
before moving to Port Orford in 1999 and becoming involved in 
local government.
    Port Orford is a small community on the Southern Oregon 
coast situated in Northern Curry County along U.S. Highway 101, 
truly a blue highway in Oregon. The population of Curry County 
was estimated at 21,365 in 2006 with a majority of the 
population located in the southern portion of the county. The 
population of the city of Port Orford was estimated at 1,225 
last year. The percentage living below the poverty level 
exceeds the national average.
    The principle industry is commercial fishing which directly 
or indirectly employs 100 to 150 people. The other significant 
portion of our economy is based on tourism which is dependent 
to a large extent on recreational fishing. The social and 
economic analysis of fisheries resources for Port Orford was 
conducted in 2005. I've attached this analysis to my testimony. 
This document has also been made part of the comprehensive plan 
for the city of Port Orford.
    The Copper Salmon Wilderness Act would protect the critical 
spawning habitat for Elk River salmon and steelhead. The ocean 
fishery at the mouth of the Elk River is important to Port 
Orford for both commercial and sports fishing. Recreational 
fishing in the Elk River itself is significant for tourism.
    The proposed Copper Salmon Wilderness has a large amount of 
community support. The Board of Curry County Commissioners 
passed a resolution in support of wilderness designation for 
this area in 1999. This resolution remains in effect to this 
day as our Commissioners have expressed repeatedly.
    Subsequent to submitting my written testimony and things, 
Curry County Commissioner, Lucy Lubonte, has written a letter 
to Senator Wyden thanking him for introducing this bill and in 
support of this specific legislation. As Mayor of the city of 
Port Orford, I personally visited the capital in April of last 
year to meet with our Oregon Congressional delegation in 
support of Copper Salmon wilderness. The delegation asked to 
get out the position of the local business community.
    The Port Orford and North Curry Chamber of Commerce voted 
their support in 2003 with a vote of 23 to 3 in favor of Copper 
Salmon. The President of our Chamber of Commerce followed up on 
my visit to the capital later in the spring last year to 
express support of the business community for the Copper Salmon 
wilderness. The Chamber Board met again last week and 
reiterated their support by voting in favor of the proposed 
legislation by Senator Wyden and Representative DeFazio. I've 
attached a letter* of support for the Chamber for this specific 
legislation to my testimony.
    The Port Orford Ocean Resource Team, POORT, an organization 
of local fishers and community members concerned with insuring 
the long term sustainability of our fishing resources and the 
social system depended upon it has written in support of this 
specific legislation. I've also attached a copy of their 
letter* to my testimony.
---------------------------------------------------------------------------
    * See Appendix II.
---------------------------------------------------------------------------
    Additionally, the city of Port Orford has long supported 
the creation of the Copper Salmon Wilderness. Earlier this 
week, the Common Council of the city of Port Orford unanimously 
passed Resolution 2805 supporting the proposed Copper Salmon 
Wilderness bill. A copy of this resolution is also attached. In 
Port Orford we don't get unanimous support on very many things.
    Senator Wyden. It doesn't happen in the Senate too often 
either.
    Mr. Auborn. We thank Senator Wyden for introducing this 
important legislation and thank Senator Smith for his co-
sponsorship and encourage the subcommittee and the entire U.S. 
Senate to enact it as soon as possible. Our community will 
benefit from this legislation for generations to come. Again 
thank you for the opportunity to testify. I welcome any 
questions that you may have.
    Thank you.
    [The prepared statement of Mr. Auborn follows:]

        Prepared Statement of Jim Auborn, Mayor, Port Orford, OR
    Chairman Wyden and Members of the Subcommittee, thank you for the 
opportunity to testify today. My name is Jim Auborn, and I am the 
mayor, City of Port Orford. I am here today in strong support of 
S.2034, the Copper Salmon Wilderness Act. I am a native Oregonian and a 
long term Republican, born and raised in the Portland area who retired 
to Port Orford after a career in the U.S. Navy/U.S. Navy Reserve and 
Bell Laboratories. I served as an engineering officer on nuclear 
submarines while on active duty and managed research programs for the 
Office of Naval Research in the reserves where I retired at the rank of 
Captain. I retired from Bell Laboratories as Director of the Government 
Communications Laboratory and served as Vice President of Research for 
Terrabeam Corporation for two years before moving to Port Orford in 
1999 and becoming involved in local government.
    Port Orford is a small community on the Southern Oregon Coast, 
situated in northern Curry County along U.S. Hwy. 101, truly a ``blue 
highway'' in Oregon. The population of Curry County was estimated at 
21,365 in 2006 with the majority of the population located in the 
southern portion of the county. The population of the City of Port 
Orford was estimated at 1,225 last year. The percentage living below 
the poverty level exceeds the national average. The principal industry 
is commercial fishing which directly or indirectly employs 100-150 
people. The other significant portion of our economy is based on 
tourism, which is dependent to a large extent on recreational fishing. 
A social and economic analysis of fisheries resources for Port Orford 
was conducted in 2005. I have attached this analysis to my testimony. . 
This document has also been made part of the Comprehensive Plan for the 
City of Port Orford.
    The Copper Salmon Wilderness Act would protect the critical 
spawning habitat for Elk River salmon and steelhead. The ocean fishery 
at the mouth of the Elk River is important to Port Orford for both 
commercial and sports fishing. Recreational fishing in the Elk River 
itself is significant for tourism. The proposed Copper Salmon 
Wilderness has a large amount of community support. The Board of Curry 
County Commissioners passed a resolution in support of wilderness 
designation for this area in 1999. This resolution remains in effect to 
this day as our commissioners have expressed repeatedly.
    As mayor of the City of Port Orford, I personally visited the 
Capitol in April 2006 to meet with our Oregon congressional delegation 
in support of Copper Salmon Wilderness. The delegation asked about the 
position of the local business community. The Port Orford and North 
Curry County Chamber of Commerce voted their support in 2003 with a 
vote of 23 to 3. The president of our Chamber of Commerce followed up 
on my visit to the Capitol later in the Spring last year to express the 
support of the business community for the Copper Salmon Wilderness. The 
Chamber board met last week and reiterated their support by voting in 
favor of the proposed legislation by Senator Wyden and Representative 
DeFazio. I have attached a letter of support from the chamber for this 
specific legislation to my testimony.
    The Port Orford Ocean Resource Team (POORT), an organization of 
local fishers and community members concerned with ensuring the long 
term sustainability of our fishing resources and the social system 
dependent on it, has written in support of this specific legislation. I 
have attached a copy of their letter to my testimony.
    Additionally, the City of Port Orford has long supported the 
creation of the Copper Salmon Wilderness. Earlier this week, the Common 
Council of the City of Port Orford passed Resolution 2008-05 supporting 
the proposed Copper Salmon Wilderness Bill. A copy of this resolution 
is also attached. We thank Senator Wyden for introducing this important 
legislation and encourage the Subcommittee and the entire U.S. Senate 
to enact it as soon as possible. Our community will benefit from this 
legislation for generations to come.
    Again, thank you for the opportunity to testify, and I welcome any 
questions that you may have.

    Senator Wyden. Mayor, thank you for an excellent statement 
and all your leadership. It's always wonderful to have you at 
the Town Hall meetings that I hold in the community and just 
really appreciate the way you've gone about this to try and 
find common ground. This is not on the Oregon coast, been about 
Democrats and Republicans. This has been about putting Oregon 
first. You have clearly conveyed that message and we thank you 
for it.
    Mr. Auborn. We appreciate your coming out each year to Port 
Orford or Curry County and thanks for your Town Hall meetings.
    Senator Wyden. As long as I have the honor of representing 
Oregon in the U.S. Senate, that's the way it's going to be.
    Mr. Rogers, welcome. Big bouquets to you for all of the 
grassroots efforts you have sure toiled long and hard. I just 
was thinking about the Mayor's statement about how the County 
Commissioners passed the resolution back in 1999 and here we 
are in 2007. You've been prosecuting the case for protecting 
this wonderful gem on the coast for a long time. We thank you 
for all those efforts and please proceed.

 STATEMENT OF JIM ROGERS, CONSULTING FORESTER, FRIENDS OF ELK 
                     RIVER, PORT ORFORD, OR

    Mr. Rogers. My name's Jim Rogers. I'm a consulting forester 
from Port Orford, Oregon. I'd like to thank Chairman Wyden for 
introducing the Copper Salmon Wilderness Act and the Senators 
on the subcommittee for the opportunity to testify today.
    Port Orford is located along a remote stretch of Highway 
101, known as America's wild rivers coast. Our weather is every 
bit as wild as our rivers. I'm here from Curry County on behalf 
of Friends of Elk River, Trout Unlimited, Campaign for 
America's Wilderness, Coalition of Sportsmen and the Who's Who 
of National, State and local public officials and environmental 
organizations who all ask you to protect Elk River by 
designating the 13,700 acres Copper Salmon Wilderness Area.
    In our watershed ancient stands of Port Orford cedar, 
Douglas fir and Western Hemlock withstand hurricane force winds 
and more than 120 inches of annual rainfall. Several endangered 
species including marbled murrelets, spotted owls, bald eagles 
and Coho salmon find refuge here. Elk River provides spawning 
and rearing habitat for winter steelhead and big, 40 to 50 
pound Chinook salmon. Black bear, mountain lions and elusive 
ring tailed cats still wander the precipitous mountains lush 
with mountain rhododendrons and massive old growth trees, trees 
that sometimes grow 300 feet tall and ten feet in diameter.
    Renowned for its remarkable water clarity the wild and 
scenic Elk River is perhaps the healthiest habitat in the lower 
48 States for anadromous fish. This watershed is a place like 
no other. In my years as a forester I've seen a lot of places.
    As timber manager for Western States Plywood Cooperative my 
responsibilities were bidding on Siskiyou National Forest 
timber sales and then supervising the road construction and 
logging activities that followed. One notorious sale was Copper 
Mountain in the upper Elk River watershed. Walking among huge 
Douglas fir and Port Orford cedar trees in the silence of the 
mossy forest along the North Fork of Elk River, I felt a quick 
pang of remorse. But my professional training quickly 
suppressed it and I began counting how many No. 2 peelers were 
there.
    Picturing the grins on the faces of the mill workers when 
they saw these huge Doug fir logs going through the lathe and 
the smiles on the faces of the Japanese log buyers when the 
priceless Port Orford cedar was safely in the holds of their 
ships, right off things went array. Even before the logging 
took place there were landslides. Then a large culvert washed 
out sending thousands of cubic yards of mud and debris directly 
into the North Fork.
    One afternoon when the logging crew was yarding logs in 
unit six, a windstorm came in and blew down the entire buffer 
we had left along the river. I stood in awe as 18 acres of 
enormous old growth trees crashed to the ground like so many 
pick up sticks. The following year several more acres of unit 
six slid straight down into the North Fork of Elk River.
    The reason that Elk River was the last south coast 
watershed to be logged became obvious. Not only was it the most 
dangerous and the most expensive watershed to work in, more 
often than not serious ecological damage resulted from building 
roads and logging in this extremely steep, rugged, unstable 
country. Indiscriminate incursions notwithstanding, Elk River 
remains one of the most intact, low elevation, temperate rain 
forests in the world.
    Although the entire area has been off limits to logging for 
the past 13 years there will inevitably be continued attempts 
to go back after the North Fork's timber. Each furtive attempt 
further damaging and eventually irreparably destroying her 
world class salmon fishery. The only way to really protect this 
unique, extremely important area for perpetuity is by awarding 
it Congressional protection as wilderness.
    The Copper Salmon Wilderness Proposal started locally from 
the ground up. Our rural community is united in support of 
wilderness designation for the Copper Salmon area. This is why 
Mayor Auborn and I traveled across the country from shore to 
shore to explain to you in plain words that the ecology and the 
economy of our remote fishing community are deeply 
interconnected. Our community depends on the health of Elk 
River watershed and the world class fishery provided by the 
North Fork of Elk River.
    From retirees to schoolchildren, all facets of our coastal 
community support wilderness designation for the Copper Salmon 
area. Church groups, business leaders, fisherman, artists and 
thousands of visitors who travel great distances to smell the 
sea air and glimpse the areas non-paralleled beauty join me in 
directing and urging you to release us from the old boom and 
bust cycle of resource extraction and to make our vision of 
economic stability a reality by establishing the Copper Salmon 
Wilderness Area.
    Thank you.
    [The prepared statement of Mr. Rogers follows:]

 Prepared Statement of Jim Rogers, Consulting Forester, Friends of Elk 
                         River, Port Orford, OR
    My name is Jim Rogers. I'm a Consulting Forester from Port Orford, 
Oregon. I would like thank Chairman Wyden for introducing the Copper 
Salmon Wilderness Act and the Senators on this Subcommittee for the 
opportunity to testify today.
    Port Orford is located along a remote stretch of Highway 101 known 
as America's Wild Rivers Coast--and our weather is every bit as wild as 
our rivers.
    I'm here from Curry County on behalf of Friends of Elk River, Trout 
Unlimited, Campaign for America's Wilderness, a coalition of sportsmen, 
and a Who's Who list of national, State, and local public officials and 
environmental organizations, who all ask you to protect Elk River--and 
44 miles of crystalline headwater streams--by designating the 13,700 
acre Copper Salmon Wilderness Area.
    In our watershed, ancient stands of Port-Orford-cedar, Douglas-fir 
and Western hemlock withstand hurricane-force winds and more than 120 
inches of annual rainfall. Several endangered species including marbled 
murrelets, spotted owls, bald eagles and coho salmon find refuge here. 
Elk River provides spawning and rearing grounds for winter steelhead 
and big 40 to 50 pound Chinook salmon. Black bear, mountain lions, and 
elusive ringtail cats still wander the precipitous mountains lush with 
wild rhododendrons and massive old-growth trees--trees that sometimes 
grow 300 feet tall and 10 feet in diameter.
    Renowned for its remarkable water clarity, the Wild & Scenic Elk 
River is perhaps the healthiest habitat in the lower 48 states for 
anadromous fish. This watershed is a place like no other, and in my 
years as a forester I've seen a lot of places.
    Graduating from the SUNY College of Forestry at Syracuse, New York, 
in 1964, I began my professional forestry career working for 
Weyerhaeuser in Aberdeen, Washington. Next I joined the U.S. Forest 
Service where my job was to lay out and appraise timber sales. Four 
years later I became the Timber Manager for Western States Plywood 
Cooperative and moved my family to Port Orford. It's here that my life 
started taking unexpected twists and turns.
    As timber manager for Western States Plywood Cooperative, my 
responsibilities were bidding on Siskiyou National Forest timber sales 
and then supervising the road construction and logging activities that 
followed. One notorious sale was the Copper Mountain Timber Sale in the 
upper Elk River watershed. Walking among huge Douglas-fir and Port-
Orford-cedar trees in the silence of the mossy forest along the North 
Fork of Elk River, I felt a quick pang of remorse; but my professional 
training quickly suppressed it and I began counting how many #2 Peelers 
there were, picturing the grins on the faces of the mill workers when 
they saw these huge Doug-fir logs going through the lathe, and the 
smiles on the faces of the Japanese log buyers when the priceless Port-
Orford-cedar was safely in the holds of their ships.
    Right off, things went awry. Even before the logging took place 
there were landslides, and then a large culvert washed out sending 
thousands of cubic yards of mud and debris directly into the North 
Fork. One afternoon when the logging crew was yarding the logs in Unit 
6, a windstorm came in and blew down the entire buffer we'd left along 
the river. I stood in awe as 18 acres of enormous old-growth trees 
crashed to the ground like so many pick-up sticks. The following year 
several more acres of Unit 6 slid straight down into the North Fork of 
Elk River.
    Today the abandoned spur roads that led to these harvest units and 
to other similar clearcuts, haven't been passable in decades, and the 
fully re-grown plantations are too steep to walk on, not to mention 
manage using conventional methods.
    However, as a result of road construction done 40 years ago, deep 
holes in the lower reaches of Elk River are still filling in with every 
winter storm. Road failures dump literally tons of rocks into the 
river; this coarse sediment fills the deep holes where the trophy-size 
salmon hide from view in the cold mountain water. Washouts also dump 
fine sediment into the streams, smothering salmon eggs and destroying 
the low-gradient productive flats that scientists consider barometers 
of watershed health.
    The reason that Elk River was the last south coast watershed to be 
logged became obvious. Not only was it the most dangerous and the most 
expensive watershed to work in--more often than not--serious ecological 
damage resulted from building roads and logging in this extremely 
steep, rough, unstable country.
    Finally, after seven years with Western Sates Plywood, I felt I had 
no choice but to disagree with my timber industry colleagues. I began 
using my on-the-ground experience and professional knowledge to save 
the most valuable fishery streams in the Elk River watershed. My new 
colleagues turned out to be fish biologists and fishermen. Working from 
my cabin in a voluntary capacity, I shaped a broad coalition of diverse 
groups including the League of Women Voters, the Longshoremen's Union, 
the Independent Troll Fishermen of Oregon, the Confederated Tribes of 
Coos, Lower Umpqua and Siuslaw Indians, and others. This group--the 
first of its kind--successfully lobbied for permanent protection of the 
fisheries of the middle stretches of the Elk and Sixes Rivers. In 1984, 
after 10 years of effort, we saw the 17,000 acre Grassy Knob Wilderness 
Area established. Grassy Knob Wilderness was the first Wilderness Area 
in our Nation created expressly to protect fish.
    The following year, the Forest Service undertook an extensive study 
of the entire watershed. Among many things, they discovered that the 
most productive fish spawning tributary was the North Fork of Elk 
River, an area that was not included in the Grassy Knob Wilderness. 
Astonishingly, despite this knowledge, the Siskiyou Forest Plan called 
for logging and roading two-thirds of the North Fork drainage.
    Friends of Elk River monitored those USFS timber sales and we 
challenged in court any sales that were unlawful; but our hands were 
tied when the Section 318 Rider and the Salvage Rider exempted all 
sales from environmental appeals. There was nothing we could do as 
loggers and road builders went back into the North Fork and clearcut 
healthy old-growth trees that were holding together the extremely steep 
mountainsides in the Elk River watershed. When it came time to cut 
those units, even one of the timber buyers tried to find a way out of 
logging the resurrected sale.
    Indiscriminate incursions notwithstanding, Elk River watershed 
remains one of the most intact low-elevation temperate rain forests in 
the world. Although the entire area has been off-limits to logging for 
the past 13 years, there will inevitably be continued attempts to go 
back after the North Fork's timber, each furtive attempt further 
damaging and eventually irreparably destroying our world-class salmon 
fishery. The only way to really protect this unique, extremely 
important area for perpetuity is by awarding it Congressional 
protection as Wilderness.
    There is no matrix in Copper Salmon. However, as was the case with 
the Grassy Knob Wilderness Area, a few old timber plantations--the 
legacy of imprudent management that took place several decades ago--
remain inside the Copper Salmon Wilderness. Including these re-grown 
plantations and using main roads as the Copper Salmon Wilderness Area 
boundary, circumvents high-priced land surveying and mapping expenses. 
It's the no-cost, sensible way to go that best safeguards the North 
Fork's ecosystem and watershed values. All of the areas within the 
proposed Copper-Salmon Wilderness area meet the criteria of the 
Wilderness Act.
    According to ecologist Dr. Christopher Frissell, ``The Copper 
Salmon area is now of high value for regional biodiversity protection 
and scientific research due to its recent history of relatively limited 
human alteration.'' Dr. Frissell conducted a detailed analysis of the 
ecological values of the Copper Salmon area. His report is attached to 
this testimony.*
---------------------------------------------------------------------------
    * Report has been retained in subcommittee files.
---------------------------------------------------------------------------
    The Copper Salmon Wilderness proposal started locally, from the 
ground up. Our rural community is united in support of wilderness 
designation for the Copper Salmon area. This is why Mayor Auborn and I 
traveled across the country--from shore to shore--to explain to you in 
plain words, that the ecology and the economy of our remote fishing 
community are deeply interconnected. Our community depends on the 
health of Elk River watershed and the world-class fishery provided by 
the North Fork of Elk River. We also know that just as our economic 
wellbeing is bound to our wild rivers and to our forested watersheds, 
our wellbeing is also dependant on the clean air and clear water that 
these forests provide.
    From retirees to schoolchildren, all facets of our coastal 
community support wilderness designation for the Copper Salmon area. 
Church groups, business leaders, fishermen, artists, and thousands of 
visitors who travel great distances to smell the sea air and glimpse 
the area's unparalleled beauty, join me in urging you to release us 
from the old boom and bust cycle of resource extraction, and to make 
our vision of economic stability a reality by establishing the Copper 
Salmon Wilderness Area.
    Please protect this gem.
    Thank you. I appreciate the opportunity to speak before your 
committee.

    Senator Wyden. The firm of Auborn and Rogers has 
represented the Oregon coast very well today. We thank you 
both, excellent presentations and just have a couple of 
questions.
    Mayor, this is a unique coalition. You just don't see this 
kind of breadth of support very often. Tell me, if you would, 
why you think that such a remarkable group that certainly 
doesn't agree on everything has come together, has coalesced 
this way?
    Mr. Auborn. I think it really started with the 
environmental groups and things. But it's very unusual and 
things for them to get the fishing community to support it and 
things. But the fishing community is really the only industry 
that we have left. They realize how important the Elk River run 
of salmon is to their economy and things and once that happened 
and things.
    We also see support from the business community because our 
business community is becoming more and more dependent upon 
tourism. Tourism, hunting and fishing in areas like on the Elk 
River and things are again, very attractive and things for our 
area. So people have seen the light.
    Senator Wyden. I think your comments about the fishing 
industry really put your finger on it because I was struck on 
my last couple of trips. You know people hear Copper Salmon, 
you know, wilderness. So all automatically are weep hitting 
wilderness against people who are concerned about economics and 
the well being of a community, as you point out, that has been 
hard hit economically. The involvement of the fishing industry 
I think has been a big factor in pulling together that 
coalition.
    That's my sense in effect of what's to come because I think 
more and more we're going to see, you know, fishing interest, 
Chamber of Commerces, environmentalists and others come 
together and I think you've laid it out very well. Just thank 
you for your support.
    Let me ask you a couple of questions, Mr. Rogers, about 
what we've heard earlier in terms of the Forest Service. Now 
the Forest Service folks have been a little concerned about 
some of the old plantations that are included in the proposal. 
My sense is you may be one of the people who really knows what 
these, you know, plantations look like and if you could give us 
a sense of what condition they're in and then as a forester, 
your thoughts about what kind of management would be 
appropriate for those plantations.
    Mr. Rogers. Essentially the Elk River is extremely steep 
and as I mentioned before that was really the last place we 
went into. I've got a few pictures here to show you what some 
of these old plantations look like. This is on Butler Mountain, 
large, clear cut. This is a stump. I don't know if you can see 
it, the roots of the stump. The soil was here, now it's down 
here. About three feet below the stump that whole hillside has 
all eroded away.
    Here's another picture that shows you how steep this 
country is. We used to--us loggers always referred to it as 
steeper than the back of God's head. Those who are a little 
more reverent called it steeper than a cow's face. But this is 
a slope in excess of 100 percent.
    I met with the Forest Service about a week ago to look at 
some of these plantations to see if we could find some common 
ground. So we just parked along the roads about. Let's just 
walk down here and see what it looks like. We walked down about 
300 feet, came to a landslide that had been there for a number 
of years. I said, you know, if you go in here and you start 
logging, you're yarding logs through these places again, you're 
going to tear the soil loose again and it's going to continue 
to erode. The ranger said, oh, well, we would never go back 
into a place like this. We would just leave it alone. I said 
well, about 80 to 90 percent of what we're talking about is 
land like this.
    This is land in excess of 80 percent slope. That's pretty 
much the line that if you cross it you get significant erosion. 
I usually figure you shouldn't log anything steeper than 70 
percent and most of this is 80 to 110 percent.
    Senator Wyden. Now the Forest Service also noted, Mr. 
Rogers that there were some old roads included in the proposal. 
What's your sense about how drivable these roads are and how 
much decommissioning work do you think would be necessary up 
there?
    Mr. Rogers. Most of the roads are not drivable any more. 
This is one of the roads. I don't know if you can see. This is 
a landslide that came off the hill and covered this road about 
ten feet deep or so.
    Most of the roads, this is pretty typical of what they look 
like. They're mostly overgrown with trees and brush. There's 
one road that--I've checked them all out in the past year. One 
road I was able to drive down a year ago, but I was probably 
the last one who drove down it. I only drove it until I came to 
trees across the road. But it was totally overgrown with tree 
branches from the sides of the road and it just kind of pushed 
through them.
    So, essentially these roads are closed and there's no 
interest in driving out them. What I'm concerned about if they 
were to decommission these roads is that they'd have to open 
them back up again and go in there and do a lot more soil 
disturbance. If you put a barricade of some sort at the 
beginning of the road, that makes it a challenge for the ATV 
people to try to get around that barricade. Now they don't have 
any interest in it because there's no way they can drive down 
it and it would take a lot of work to be able to open a road 
enough for any kind of vehicle.
    Senator Wyden. We will work closely with you and the Forest 
Service folks and get this addressed to everybody's 
satisfaction.
    Now they also cite fire fighter safety the issue of 
adjusting boundaries. Give us a sense of what you think is the 
fire danger in the coastal rain forest.
    Mr. Rogers. This area gets between 120 inches at the low 
end to 160 inches of rain at the upper end a year. It's very 
wet. It would be hard to a fire to start anywhere inside it, 
like a lightning caused fire. The most likely place where fires 
would start is right along the edge of the road where somebody 
might throw out burning material.
    When we talked to the Forest Service last week we discussed 
that. We felt that 100 foot strip from the edge of the road 
should be left out of the wilderness so that that could be 
managed to reduce fire hazard by thinning trees, cutting the 
limbs off. So you don't have the ladders and maybe removing 
dead material along the edge of the road. As far as hazard to 
fire fighters it wouldn't really be different whether it was 
wilderness or LSR.
    Senator Wyden. Well, gentlemen I don't have any further, 
further questions. My sense is you've got a long flight ahead 
of you. I know what that trek is like. I just want to leave you 
with one thought.
    I think what you all have done on the Oregon coast in this 
debate about Copper Salmon which certainly has gone on for a 
long time, is a textbook case for how a community can come 
together on a major natural resources issue. I think we all 
know what happens so often on these kinds of issues is people 
start often in adversarial way and the decibel level goes up 
from there. In other words, having started pretty polarized, 
then it gets increasingly worse. Very often ends up in some 
sort of Federal courthouse, particularly as it relates to these 
issues when you're talking about Federal policy.
    What you all said from the very beginning as it related to 
this debate is you wanted to do something that made sense for 
the whole community. You wanted to do something that made sense 
for the environment, something that made sense for fishing. 
That the Chamber of Commerce could rally behind. That 
environmentalists could rally behind. In the process you've 
done an awful lot of good for our State and given us, at least 
on this subcommittee, a real model.
    So, I want to congratulate you. I know it has been a long, 
long journey. We are not done yet, but to have our delegation 
united with the involvement of Senator Smith and your 
Congressman, Congressman DeFazio and the cooperative attitude 
of the Forest Service that we heard demonstrated again this 
afternoon. I think we can get this job done.
    So, Godspeed. It's a long trip home, but your hard work is 
really paying off. It's paying off for the people of the Oregon 
coast. I think it's paying off for our country because you're 
giving us a good model of how we ought to come together in 
terms of natural resources.
    So, I always like to let our witnesses have the last word. 
If you'd like to add anything further we'll hear that and then 
we'll send you on your way.
    Mayor, Mr. Rogers, anything you want to add?
    Mr. Auborn. I think we really want to thank you for doing 
this. It really shows that our political process works and 
things. You've visited Port Orford and Curry County on several 
times. You've heard the message. It really pleases us to see 
some action on it. So thank you again.
    Senator Wyden. Thank you, Mayor.
    Mr. Rogers.
    Mr. Rogers. I'd like to thank you very much for your kind 
words. I'm not sure we're totally deserving of them but I very 
much appreciate it. Port Orford is probably the most 
cantankerous town in all of Oregon and to find anything that 
everyone agrees on is----
    Senator Wyden. Your point about verbal inflation tends to 
be generally true in the U.S. Senate but not in your case. You 
all really do deserve it for all this cooperation. So we thank 
you. With that the subcommittee is adjourned.
    [Whereupon, at 3:30 p.m. the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

                    U.S. Department of Agriculture,
                                            Forest Service,
                                   Washington, DC, October 9, 2007.
Hon. Ron Wyden,
Chairman, Subcommittee on Public Lands and Forests, Washington, DC.
    Dear Senator Wyden. Enclosed please find the responses to the 
questions for the record submitted by the Subcommittee on Public Lands 
and Forests of the Senate Committee on Energy and Natural Resources 
from the September 20, 2007, hearing.
    If you have any additional questions, please contact Forest Service 
Legislative Affairs specialist Teri Cleeland at 202-205-1036.
            Sincerely,
                                              Joel Holtrop,
                                                      Deputy Chief.
        Responses to Questions From Senator Domenici, on S. 1025
    Question 1. I've been told that Senator Craig's staff utilized the 
Forest Service for an informal drafting service on this legislation. 
Thus, I find it odd that you are now expressing concerns about the 
mechanics of the correction to the Wilderness Boundary. Can you help us 
understand how or why the Forest Service changed its mind after 
providing the drafting service?
    Answer. The Small Tracts Act (STA) has a size limitation of 10 
acres. The legislation would provide an exception to the STA for 
approximately 10.2 acres. However, the current acreage being considered 
for direct exchange or sale is approximately 30 acres. The agency 
cannot support this large of a variance from the STA size limitation.
    Question 2. Mr. Holtrop, in your testimony on S. 1802 you said: 
``the Department would prefer to use a different land adjustment 
authority than the Small Tracts Act, which is not appropriate to this 
situation.'' Can you tell me exactly what the alternative land 
adjustment authority it is that you would like to have included in the 
legislation and how that authority works?
    Answer. The Forest Service has only one suitable administrative 
option in this case for resolving the Ranch's unauthorized 
improvements, i.e., our general exchange authority, pursuant to the 
General Exchange Act of 1922. We would like to work with the committee 
and sponsor to discuss what is the best solution under the current 
circumstances; e.g., the legislation could provide for a special one-
time sale authority of the encumbered lands.
    Question 3. Could you also provide me an estimate of the time it 
would take the Forest Service to complete the work under this 
alternative process once this bill is signed into law?
    Answer. If this bill becomes law, the wilderness boundary 
adjustment could proceed immediately. The time necessary to execute an 
administrative land exchange would be approximately 1.5 to 3 years, if 
no significant issues or obstacles arose. Exchanges are more complex 
than sales for a number of reasons, including the requirement for an 
exchange that the values of the federal and non-federal lands be 
equalized.
        Responses to Questions From Senator Domenici, on S. 2034
    Question 4. In your testimony on S. 2034, you said: ``The 
Department would like to work with the bill's sponsor and the committee 
to offset the wilderness boundary inward along perimeter roads to 
implement planned treatments within a reasonable distance of the road, 
provide for routine road maintenance, and to decrease the likelihood of 
incompatible motorized use in wilderness.'' Many wilderness bills 
passed by Congress include automatic setbacks of 50, 100 or 200 feet 
along roads that abut the proposed wilderness boundary. Are you 
suggesting a greater set-back in this instance? If so, how large of set 
back are you recommending?
    Answer. No. We believe we could accomplish our road maintenance 
objectives and protect the public from Danger Trees within a 300 foot 
setback from the perimeter roads.
    Question 5. I also note your concern about old harvest units that 
have been proposed for wilderness that the Agency would like to 
continue to manage to improve habitat conditions for fish and wildlife, 
reduce effects from insects and disease, and provide defensible space 
for firefighters in the event of a wildfire. Given the steep nature of 
the area and the sensitive soils, I assume that you will need to 
utilize a full-suspension logging system to manage these areas. How 
much of an additional buffer beyond the current boundaries of these old 
harvest areas will you need to provide adequate tail-holds to 
accomplish the management you're talking about?
    Answer. Any setback from the roads would have to contain all forest 
restoration activities, including any logging system. We are not 
contemplating that entire plantations along roadways would be managed, 
because we would ask for a uniform setback.
                                 ______
                                 
    [Responses to the following questions were not received at 
the time the hearing went to press:]

      Question for Michael Nedd From Senator Domenici, on S. 1143
    Question 1. Director Nedd, in your testimony on S. 1143 you said: 
``The Department would like the opportunity to work with Senator Nelson 
and the committee on some technical amendments including a correct map 
reference and other minor issues.'' Could you take several minutes to 
tell us exactly what your concerns are and how the Department would 
propose the legislation be modified to address your areas of concern?
      Question for Michael Nedd From Senator Murkowski, on S. 1143
    Question 2. Mr. Nedd, you indicated in your testimony that the 
Department of the Interior would submit a proposed amendment to S.1433. 
If the Department has not already done so, kindly submit the proposed 
amendment at this time.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

Statement of Gary D. Preszler, Commissioner and Secretary, North Dakota 
            Board of University and School Lands, on S. 1740
    Mr. Chairman, on behalf of the North Dakota Board of University and 
School Lands (Board), I appreciate the opportunity to submit written 
testimony in support of S. 1740, and I ask that this written testimony 
be included in the hearing record.
    S. 1740 was introduced by Senators Conrad and Dorgan on behalf of 
the Board, the North Dakota State Legislature, and the people of North 
Dakota.
    As provided by the North Dakota Constitution, the Board is made up 
of the Governor, Secretary of State, Attorney General, Superintendent 
of Public instruction, and the State Treasurer. The Board is 
responsible for managing the lands and financial assets (permanent 
trusts) that were granted to the State of North Dakota by the Federal 
Government at statehood through the Act of February 22, 1889 (commonly 
known as the Enabling Act) and the Act of July 2, 1862 (commonly known 
as the ``First Morrill Act''). The primary beneficiary of the permanent 
trusts under the Board's control is the common schools (K-12 
education); however, these trusts also benefit various institutions of 
higher education, the state veteran's home, state hospital and a number 
of other governmental entitles.
    The purpose of S. 1740 is to:

  <bullet> Update the Enabling Act and First Morrill Act for North 
        Dakota;
  <bullet> Update those Acts to reflect the wishes of the people of 
        North Dakota; and,
  <bullet> Give the Land Board the ability to better invest the trust 
        funds by using recognized modern investment principles.

    The Enabling Act and the First Morrill Act currently restrict the 
way these trust funds can be managed by limiting distributions to the 
``interest and income'' generated by the trusts each year. S. 1740 will 
change the way trust distributions are determined. Current methodology 
is based on the interest and income earned by the trust funds (terms 
which today are sometimes difficult to define due to the types of 
investment structures and accounting practices). The new method is 
based on the value of the financial assets in the trust funds, and the 
growth of those assets over time.
    When trust assets were made up of primarily land, bonds, and loans, 
it made sense to distribute only the interest and income generated by 
these assets. This is the way most trusts and endowments were managed 
100 years ago. North Dakota's permanent trusts financial assets are now 
approaching $1 billion, with the trust funds consisting of a diverse 
portfolio of stocks, bonds, minerals interests, surface lands, and 
other assets. Investment practices have changed substantially over the 
past 50 years, as have financial markets. S. 1740 recognizes these 
changes and provides the Board with the means to manage the trust funds 
in a way that meets the best practices for endowments and permanent 
funds for the 21st century.
    The Board first sought approval for the changes from the North 
Dakota Legislature. House Concurrent Resolution (HCR) No. 3037 was 
passed by the North Dakota House by a vote of 84-1 and passed by the 
North Dakota Senate by a vote of 41-4. On November 7, 2006, the people 
of North Dakota approved the constitutional changes (Constitutional 
Measure No. 1) by a vote of 67% to 33%. The vote indicates strong 
support for this measure from both the government and people of North 
Dakota.
    It is important to note that S. 1740 only changes the Enabling Act 
and First Morrill Act for North Dakota. It does not have any impact on 
South Dakota, Montana or Washington, the other three states that 
achieved statehood through the Act of February 22, 1889. However, it is 
important to also note that at least two other states received 
Congressional approval to change similar Acts; New Mexico in 1997, and 
Idaho earlier in 2007.
    In summary, by bringing the management of the permanent trusts in 
line with universally-adopted investment principles and practices of 
the largest endowments and trusts in the nation, passage of S. 1740 
should help ensure higher and more reliable distributions. It would 
allow the Board to manage the trusts more efficiently and effectively, 
better serving the people of North Dakota for generations to come.
                                 ______
                                 
       Statement of American Forest Resource Council, on S. 2034
    Thank you for the opportunity to submit the American Forest 
Resource Council's (AFRC) views on S. 2034, the Copper Salmon 
Wilderness Act.
    AFRC represents nearly 90 forest product manufacturers and forest 
land owners in the west and the majority of the mill capacity in the 
Pacific Northwest. These companies generate thousands of quality jobs 
across the region and are often among the largest private employers in 
rural communities. AFRC members are almost entirely private companies--
many of them family owned--that range from small to very large 
operations.
    AFRC believes in the multiple use mandate and sustainable 
management of our national forests. This includes supporting wilderness 
designations where areas meet the original intent of the 1964 
Wilderness Act. It also means supporting active management where 
appropriate. We are committed to being part of the solution to restore 
our public forests while supplying American's with quality wood 
products and renewable biomass energy.
    During the week of September 24, AFRC staff had the opportunity to 
visit the proposed area on the ground, review Forest Service maps and 
aerial photos. This testimony and the attached document are based on 
what we know about the area, observed on the ground and uncovered by 
reviewing information provided by the Forest Service.
    The Copper Salmon area is known as a world class fishery, which is 
why some support its designation as wilderness to ``preserve'' and 
``protect'' the area. Many times forest management--whether it be 
thinning, road restoration, soil stabilization, in-stream habitat 
improvements, etc.--is needed to ensure high-quality fish and wildlife 
habitat.
    Wilderness designation, however, would prohibit this type of 
restoration and severely limits land managers. This seems contrary to 
the idea of ``protecting'' the Copper Salmon. Instead of wilderness, 
the more appropriate approach would allow for responsible management 
now and in the future to ensure the area remains a world-class fishery. 
While AFRC is not advocating for traditional timber management in this 
area, the fact of the matter is timber harvests have been conducted on 
about one-fifth of the entire proposed wilderness and it remains an 
excellent fishery. Furthermore, with roughly 1,000 acres of overstocked 
Douglas fir plantations, some active management is needed to address 
forest health while maintaining or improving fish and wildlife habitat.
    We found that the Copper Salmon wilderness proposal contains 11.8 
miles of system roads, 92 culverts, an unknown amount of roads no 
longer identified as system roads, old mining claims, approximately 
2,600 acres of previously harvested stands (19% of the total acreage) 
and about 1,000 acres of overstocked Douglas fir plantations. This 
certainly does not conform to the Wilderness Act principles of 
``untrammeled by man'' or ``primeval.'' To the contrary, these areas 
have been substantially influenced by humans. Proponents of this and 
similar legislation generally oppose active management in unroaded 
areas while only supporting limited management in already-roaded areas. 
Yet with this proposal they are arguing that roaded areas can be 
designated as ``wilderness.'' This is an inconsistent position and this 
policy should not be accepted by Congress. Roads, like other 
significant human structures, should be excluded from wilderness 
designations.
    The Forest Service has indicated that if this bill became law, the 
Agency would likely ``restore'' roads and remove culverts to protect 
water quality. Due to numerous culverts and the permanent nature of the 
roads, this would cost the Agency an estimated $300,000 to complete 
using heavy equipment, such as an excavator. Realistically, the Forest 
Service would likely lack the money and resources to completely 
decommission roads and return the area to that resembling 
``wilderness,'' especially if it has to be accomplished by non-
motorized means. At a time when the Forest Service budget is static or 
declining and fire suppression consumes nearly half of the budget, it 
is unrealistic to place this financial burden on the already cash-
strapped agency. It is also irresponsible to designate this area as 
wilderness--precluding much-needed road or forest restoration in the 
future--with the knowledge that this could harm the fishery.
    With all of that said, AFRC does recognize certain areas within the 
wilderness proposal contain old stands of Port Orford cedar that should 
remain intact and that the area as a whole is an excellent fishery that 
should be conserved. At the very least, however, we recommend removing 
areas containing roads, previously harvested stands and plantations 
from the wilderness proposal. This would ensure land managers the 
ability to appropriately manage the area today and in the future to 
enhance and protect the fishery.
    Thank you again for the opportunity to submit testimony on this 
legislation.
                                 ______
                                 
                           Port Orford Ocean Resource Team,
                               Port Orford, OR, September 12, 2007.
Mayor James Auborn,
City of Port Orford, OR.
    Dear Mayor Auborn: We are pleased to write this letter in support 
of the Copper-Salmon Wilderness legislation recently introduced by 
Senator Ron Wyden and Representative Peter DeFazio.
    Establishing 13.700 acres in the southern Oregon Rogue River-
Siskiyou National Forest as wilderness is an important step to protect 
the upper-watershed of the Elk River. This legislation will help 
protect critical spawning and rearing habitat for Elk River salmon and 
steelhead.
    Our organization works closely with the commercial fishermen who 
harvest fish each year near the mouth of the Elk River. The fishery 
generates dollars that support fishing families and our community. 
Keeping the river healthy and productive is important to the people who 
live at Port Orford.
    Our great appreciation goes out to Senator Wyden and Representative 
DeFazio for supporting our community by introducing this important 
legislation.
            Sincerely,
                                             Aaron Longton,
                                                         President.
                                 ______
                                 
                               Chamber of Commerce,
                          Port Orford & North Curry County,
                               Port Orford, OR, September 17, 2007.
Hon. Ron Wyden,
Chairman, Public Lands & Forests Subcommittee.
    The Port Orford & North Curry County Chamber (P.O.N.C.C.C.C.) would 
like to thank you and Representative Defazio for your actions and 
support leading to the introduction of the Copper Salmon Wilderness 
Bill. The P.O.N.C.C.C.C. business community has been in support of this 
legislation since 2003 when a vote from the membership was taken with 
26 in favor and 3 against. On September 10th, 2007 the P.O.N.C.C.C.C. 
Board of Directors met for our regular scheduled meeting and voted in 
support of the Copper Salmon Wilderness Bill.
     As you know, the Elk River is the only intact watershed on the 
Southern Oregon Coast. The Elk River is also one of the most productive 
salmon habitats in the lower 48 States according to a 1985 U.S. Forest 
Service Biologist and Geologist study. Fishermen from all over the 
country come here to fish for salmon in the waters of the Elk River. 
This brings a vital economic boost during the lull in our tourism 
driven economy. Restaurants, Motels, R.V. Parks, Grocery Stores, 
Hardware Stores, Art Galleries, Advertisers and Fishing Guides benefit 
from this eco-based winter tourist industry. There is not a business in 
the community that does not receive a beneficial dollar during the 
hardest months of their economic year.
    The Port Orford & North Curry County Chamber of Commerce 
understands the economic and eco-tourism aspects that are vital to our 
community now and for years to come. The Port Orford & North Curry 
County Chamber of Commerce would like to thank you again for your 
support of the Copper Salmon Wilderness Bill and hope that you continue 
your efforts towards the passing of this legislation that is so 
important to our community.
            Very Respectfully,
                                            David B. Smith,
                                                         President.
                                 ______
                                 
                                              Curry County,
                                Gold Beach, OR, September 18, 2007.

Hon. Ron Wyden,
Chair, U.S. Senate Subcommittee,Public Lands and Forests, Senate 
        Committee on Energy and Natural Resources.

    Dear Senator Wyden: Thank you for introducing S. 2034 The Copper 
Salmon Wilderness Act. As you know this forest is the headwaters to the 
Elk River which is a major fish bearing stream in northern Curry 
County, Oregon. Fishing is a very important to the Curry County 
economy. This area deserves wilderness consideration to preserve its 
beauty and the fish runs for generations to come. I fully support this 
designation and S .2034.
            Sincerely,
                                            Lucie La Bonte,
                                                      Commissioner.
                                 ______
                                 
   Statement of Erik Fernandez, Wilderness Coordinator, Oregon Wild, 
                               on S. 2034

    Oregon Wild, formerly Oregon Natural Resources Council, strongly 
supports the Copper Salmon Wilderness Act, S 2034. The Wilderness and 
Wild and Scenic Rivers protections contained within this legislation 
are long overdue for this unique and spectacular area.
    Located in Southwest Oregon, the Elk River watershed that is the 
focus of the Copper Salmon legislation is home to the healthiest run of 
wild salmon for a river of its size in the lower 48 states. With wild 
salmon stocks in decline throughout Oregon and the Northwest, it is 
critical that we protect those that are still thriving. The proposed 
legislation would do just that by designating 13,700 acres of 
Wilderness and 9.3 miles of the North and South Fork of the Elk River 
as Wild and Scenic Rivers.
    Oregon Wild commends Senators Ron Wyden and Senator Smith for their 
hard work in developing legislation to protect this critically 
important area. The local economy, anglers, recreational users of the 
river and wildlife will all benefit from this important legislation.
    Copper Salmon is also home to some of the last stands of healthy 
Port Orford cedar, Oregon's most endangered tree. Maintaining areas in 
their primitive state without vehicular access is the best preventative 
medicine to keep these stands of Port Orford cedar intact and healthy. 
The disease that infects the trees is a spore that travels on the 
wheels of vehicles, and logging roads and other development have 
hastened its spread.
    Copper Salmon Wilderness legislation also helps address a major 
imbalance in protection of pristine lands in the Pacific Northwest. 
Currently only 3.7% of Oregon is permanently protected as Wilderness, 
an absurdly low number, especially when compared to neighboring states 
(WA: 10%, CA: 14%).

                                culverts
    There are culverts on old roads in the area proposed for 
Wilderness. The primary concern with culverts is minimizing any 
disturbance to water quality. The roads with the culverts in question 
are often over-grown with trees growing in the road. Even at the time 
of construction these were low-grade logging roads. Based on our 
experience with forests of this type, more damage would be done by 
going into the area and removing the culverts than by allowing for 
natural recovery of the landscape. Due to the climate of this area, the 
forest is already reclaiming these roads. Decommissioning the culverts 
would actually require more time and money to be spent re-building the 
roads in order to reach them. The soil and watershed disturbance that 
would result from such development would likely outweigh the potential 
benefit of removing the culverts.
    If at some point in the future the USFS determines there are 
culverts where a more active approach is needed, the minimum tools 
analysis under the Wilderness Act allows them a simple and efficient 
way to gain authority to use mechanized equipment if necessary and 
remove them. We would support report language that clarified the intent 
of the Wilderness Act to allow for mechanized machinery if ``necessary 
to meet minimum requirements for the Administration of the area'' (as 
stated in the Wilderness Act) in accordance with the existing minimum 
tools policy. It is our understanding that this is no more than a 
clarification of the Wilderness Act, not new policy.
                                 roads
    Currently there are 11 miles of classified roads in the Copper 
Salmon Wilderness proposal. Of those roads, 9 miles are already closed, 
and the remaining 2 miles are only accessible by high clearance 
vehicle. While Wilderness designation is intended to protect areas 
primarily influenced by nature, in some instances it makes sense to 
include roads for management or watershed purposes. Congress has 
included roads in countless Wilderness areas where it was deemed 
appropriate, and we believe it is appropriate in this case.
                              plantations
    The plantations within the proposed Wilderness are on extremely 
steep slopes, in some cases 100% slope (45 degrees). Oregon Wild is 
generally supportive of plantation thinning where it can be done in an 
ecologically beneficial manner. In the Copper Salmon area the slopes 
are steep enough that any thinning operation would cause more harm than 
good. Disturbing the soils on the steep slopes would undoubtedly lead 
to erosion and siltation of spawning gravel in the area's salmon 
bearing streams. As with roads, over time nature will reclaim these 
areas, and we therefore support their inclusion in the proposed 
Wilderness. Color aerial photos taken in the year 2005 show that this 
process is already well under way and the plantations are growing back 
on their own now. Including these plantations allows for a more 
manageable boundary for the Wilderness area which will in turn make it 
easier for the public to know where the boundary is and easier for the 
US Forest Service to police illegal activities (such as off road 
vehicle use.) There is significant existing precedent for including 
plantations in Wilderness areas where appropriate. In fact, the Grassy 
Knob Wilderness, just west of Copper Salmon, encompasses a large 
plantation for many of the same reasons.
    In closing, we fully support the designation of the Copper Salmon 
Wilderness and the Wild and Scenic River designation for the North and 
South Fork of the Elk River.

                                    

      

</pre></body></html>
